<html>
<title> - GENERAL AND FLAG OFFICER REQUIREMENTS</title>
<body><pre>[Senate Hearing 112-258]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-258
 
                 GENERAL AND FLAG OFFICER REQUIREMENTS

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON PERSONNEL

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 2011

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-850                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcbbacb39cbfa9afa8b4b9b0acf2bfb3b1f2">[email&#160;protected]</a>  


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                 ______

                       Subcommittee on Personnel

                      JIM WEBB, Virginia, Chairman

JOSEPH I. LIEBERMAN, Connecticut     LINDSEY GRAHAM, South Carolina
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                 General and Flag Officer Requirements

                           september 14, 2011

                                                                   Page

Stanley, Hon. Clifford L., Under Secretary of Defense for 
  Personnel and Readiness........................................     6
Gortney, VADM William E., USN, Director, Joint Staff.............     7
Freeman, Dr. Benjamin J., National Security Fellow, Project on 
  Government Oversight...........................................    13
Chiarelli, GEN Peter W., USA, Vice Chief of Staff, U.S. Army.....    36
Ferguson, ADM Mark E., III, USN, Vice Chief of Naval Operations, 
  U.S. Navy......................................................    40
Dunford, Gen. Joseph F., Jr., USMC, Assistant Commandant, U.S. 
  Marine Corps...................................................    46
Breedlove, Gen. Philip M., USAF, Vice Chief of Staff, U.S. Air 
  Force..........................................................    49

                                 (iii)


                 GENERAL AND FLAG OFFICER REQUIREMENTS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2011

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, Ayotte, and 
Graham.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella E. Fahrer, counsel; and Peter K. Levine, general 
counsel.
    Minority staff member present: Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Kathleen 
A. Kulenkampff.
    Committee members' assistants present: Brad Bowman, 
assistant to Senator Ayotte; and Sergio Sarkany, assistant to 
Senator Graham.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. The subcommittee will come to order.
    The subcommittee meets today to receive testimony on 
general and flag officer (G/FO) requirements. We are holding 
this oversight hearing to examine the growth over time of G/FOs 
in the military. It has been 66 years since the end of World 
War II, and there have been an estimated 10 studies and reviews 
of general officer requirements during that period, but this is 
the first hearing on this issue, I think, in recent memory.
    This hearing will consist of two panels. On the first 
panel, we have the Under Secretary of Defense for Personnel and 
Readiness, Dr. Clifford Stanley, and the Director of the Joint 
Staff, Vice Admiral William Gortney, who served as co-chairs of 
The General and Flag Officer Study Group established by the 
Secretary of Defense in August 2010. This study group conducted 
a baseline review of Active Duty G/FO positions as they existed 
in fiscal year 2010.
    Based on the results of this study group's work, the 
Secretary of Defense in March 2011 approved changes to 140 G/FO 
requirements, including the elimination of 102 G/FO positions, 
and reduction to a lower grade of an additional 23 positions.
    We are interested in the scope of the study group's efforts 
and also learning if the Department of Defense (DOD) plans any 
future reviews of G/FO positions.
    Also on our first panel is Dr. Benjamin Freeman, a National 
Security Fellow at the Project on Government Oversight (POGO). 
Using data provided by DOD, Dr. Freeman is conducting a 
comprehensive study of trends in the numbers of G/FOs on Active 
Duty and the relationship of these numbers to the size of the 
military. Dr. Freeman will provide us with historical data on 
these changes and also will discuss the relationship of these 
requirements to the size of the force.
    The second panel will consist of the Vice Chiefs of Staff 
of the Army, Navy, and Air Force, and the Assistant Commandant 
of the Marine Corps. These witnesses will help us to understand 
each Service's stated requirements for the numbers of G/FOs and 
what drivers exist to explain the growth in the numbers over 
time.
    I would like to make an observation at this time. The last 
hearing that we held here involved Judge Advocate General (JAG) 
positions.
    I welcome the ranking member, Senator Graham, and there is 
nothing that I have said that you would have not heard before. 
So you are coming in at the right time. Welcome.
    I was just beginning to make a point. As a result of our 
last hearing where we had extensive discussions on the issue of 
JAGs in a room full of lawyers with the bench full of lawyers 
and most of the people on the subcommittee are lawyers, our 
conversations went on for a very long period of time. I am 
conscious of the work of people here in the Senate and also 
those of you who are helping in the defense of the country.
    So I am going to ask, first of all, that all the witnesses 
adhere to the traditional 5-minute rule in terms of summarizing 
your testimony. Your full written testimony is a part of the 
record. It has been examined thoroughly by staff and will be 
available for follow-on. Also for those members of the 
subcommittee to adhere to a 7-minute rule in terms of 
questions. If people on the subcommittee have follow-on 
questions, they will certainly be entertained.
    I first raised this issue in this subcommittee in April 
2010 when I asked DOD for information on the number of generals 
and admirals in the military. This issue was addressed again in 
this subcommittee's hearing 2 months ago when we discussed the 
number of G/FOs serving in the JAG Corps in each branch of the 
armed services. At that time, I noted the disparity among the 
Services in the numbers of G/FOs.
    In preparation for this hearing, we have collected the data 
reflected on this chart that is now up on the screen. I am 
going to just spend a minute or 2 talking on this. What we 
asked DOD to provide us was a comparative timeline from fiscal 
year 1986 and then 2001 and then today snapshots of the 
authorized end strength of the different Services and the 
number of G/FOs by Service and by rank.
    You will notice on these charts, it is just going from 1986 
to 2011, the Army's end strength having gone from 780,800 down 
to 480,000 in 2001 but up to 569,000 today, their total number 
of general officers having gone from 412 to 315 to a ratio of 1 
general officer for every 1,800 soldiers on Active Duty, 
although the numbers of three stars and four stars are fairly 
constant. In fact, they are directly constant in terms of four 
stars and just slightly down in terms of three stars.
    The Navy having gone from 586,000 to 328,000 on Active 
Duty, the total number of flags actually having gone up by one 
during that period, a lot more in terms of the three-star ranks 
and two more in terms of four-star and rather consistent at the 
0-7 level.
    The Marine Corps, 199,500 in fiscal year 1986 to 202,000 in 
fiscal year 2011, the number of overall general officers from 
65 to 86, fairly constant at 0-7, well, only one up in terms of 
four stars but doubling in terms of three stars.
    The Air Force having gone from 611,500 in 1986 to 332,000, 
its total number of general officers having gone from 339 to 
314, its number of four stars having gone from 12 to 13, three 
stars to 43.
    In comparing the overall numbers in 2011, we can see that 
the ratio of the Air Force is about 1 general officer for every 
1,000 airmen on Active Duty; the Marine Corps, 1 for every 
2,350 marines; the Navy, 1 for every 1,279 sailors; and again, 
the Army, 1 for every 1,808 soldiers.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. We all know that when someone looks at the 
rank on an Active Duty member's shoulders and sees the general 
officer or an admiral, they pretty much tend to think--and I 
hope rightly so--that there is equivalence in terms of what it 
takes to become a flag officer or a general officer in terms of 
history and also in terms of criteria. This is what we have 
asked to examine in this hearing today.
    This is not intended to be an adversarial hearing. More 
than anything, it is an informational hearing. We would like to 
hear from the people who conducted this study and also the Vice 
Chiefs of the Services and the Assistant Commandant in terms of 
how these ranks are agreed upon and what the requirements are 
and how people feel about the growth that has occurred. We can 
understand some of this growth explained by post-September 11 
increases in joint requirements, and I look forward to hearing 
from our witnesses what other reasons might be behind them.
    The numbers provided this subcommittee indicate a 
particular disparity in the distribution of four-star generals 
and admirals. As shown in the next chart, data provided by the 
Services reflects that as of October 1, 2011, the Army will 
have 11 four-star generals: 5 in the institutional Army and 6 
in joint and other competitive assignments. The Navy will also 
have 10 four-star admirals: 6 in the institutional Navy; 4 in 
joint assignments. The Marine Corps will have four four-stars: 
two in the institutional force; two in other assignments. The 
Air Force will have 13 four-stars: 9 in the institutional Air 
Force and 4 in other assignments. The disparity in the number 
of four-star positions in the institutional forces, I think, 
warrants an examination. I am curious as to whether the 
Efficiencies Study Group looked at this and other disparities 
as part of their examination.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. At this point, I would like to invite Senator 
Graham to make any opening statement that he would like.
    Senator Graham. No, Mr. Chairman. I think this is good for 
the committee to get the information and look at the issue. I 
appreciate the effort to listen and learn.
    Senator Webb. Thank you very much.
    Secretary Stanley and Vice Admiral Gortney, welcome. There 
was a joint written statement which we have examined, and each 
of you, I understand, are prepared to give a short opening 
statement. We will proceed from Secretary Stanley to Admiral 
Gortney and after that, we will hear from Dr. Freeman. So, 
Secretary Stanley, welcome.

   STATEMENT OF HON. CLIFFORD L. STANLEY, UNDER SECRETARY OF 
              DEFENSE FOR PERSONNEL AND READINESS

    Dr. Stanley. Thank you, Mr. Chairman and Senator Graham. 
Thank you very much. Admiral Gortney and I have prepared one 
joint statement, as you have just said, and we wanted to have 
this particular statement here to just go over some comments 
very briefly.
    The General and Flag Officer Efficiencies Study Group, or 
the Study Group as we referred to it, was directed by the 
Secretary of Defense to take a critical look at the number and 
grades of the Department's Active Duty G/FO positions with an 
eye toward reducing where appropriate. The Secretary of Defense 
specifically directed Admiral Gortney and I to conduct a 
baseline review of all Active Duty G/FO positions, identify at 
least 50 for elimination, and to make recommendations to 
realign G/FO positions based on organizational missions. In 
addition, the Secretary directed that we seek every opportunity 
to eliminate bureaucracy, reduce overhead, and develop policies 
to better manage future G/FO growth. While there is clearly 
more work to be done with respect to the Reserve components, we 
are here today to report on the results of last year's Active 
component review.
    Our review differed from earlier G/FO reviews--and this is 
since World War II--in several distinct ways. The review was 
conducted in the midst of a war. The amount of time allotted 
was very compressed, and the objective was not to determine the 
exact number of G/FOs required, but instead to identify 
organizational efficiencies which would allow us to more 
effectively align the G/FO force with the priority of missions.
    The most significant difference may be that the Secretary 
has approved a new governance structure that will maintain the 
number of G/FOs below statutory ceilings and provide us needed 
flexibility to rapidly adapt service force structures to meet 
the emerging requirements. This is a significant change to the 
way we will manage our G/FO forces in the future, and we 
understand the value of this flexibility rests with an 
understanding of our previous force management practices.
    In the past, DOD always maintained the number of G/FOs as 
close to statutory ceilings as possible. While this provided 
sufficient numbers of G/FOs to meet the most pressing needs, 
anytime a new requirement arose, delays ensued while an offset 
was identified and then downgraded or eliminated.
    Just as this committee gave flexibility to the joint 
community through new legislation in 2009, the creation of the 
joint pool, the Secretary of Defense has directed reductions 
which, through self-imposed policies, will similarly allow the 
military departments to operate below authorized ceilings and 
gain that same flexibility. We refer to this as a ``Service 
buffer or Services buffer.'' This buffer served as a shock 
absorber against new requirements allowing an offset position 
to be eliminated without negative impact on the mission or 
personnel caused by ill-timed action.
    Our review began with the identification of 952 authorized 
and funded G/FO positions in the Active ranks: 294 joint and 
658 Service positions. While the number of serving G/FOs and 
the specific positions fluctuated slightly over time, 952 was 
our fiscal year 2010 baseline starting point--this was the 
basis from which we identified positions for elimination and 
reduction.
    After careful and thoughtful deliberation, including 
extensive discussions with senior officials from the Military 
Services, Vice Admiral Gortney and I recommended 110 positions 
for elimination and the Secretary of Defense ultimately 
approved the elimination of 103 G/FO positions.
    Twenty-three additional positions were identified for 
reduction to a lesser grade, and then finally, 10 positions 
were restructured and reallocated in support of joint 
organizations such as U.S. Cyber Command (CYBERCOM).
    As I previously stated, the Secretary chose to create 
flexibility and enhance readiness across DOD by establishing a 
policy framework rather than seek statutory changes. Operating 
below authorized grade and strength ceilings gives DOD the 
ability to rapidly change force structure. As I am sure you 
fully appreciate, speed is critical in modern warfare. 
Maintaining this buffer against future senior office 
requirements ensures a rapidly adaptable force structure which 
is essential to our military forces.
    This concludes my verbal statement. My co-chair, Vice 
Admiral Gortney, will cover the details regarding how we came 
to these recommendations. Thank you, Senator Webb, Senator 
Graham, and members of this subcommittee.
    Senator Webb. Thank you very much, Secretary Stanley.
    Admiral Gortney, welcome.

  STATEMENT OF VADM WILLIAM E. GORTNEY, USN, DIRECTOR, JOINT 
                             STAFF

    Admiral Gortney. Thank you, Dr. Stanley.
    Mr. Chairman, Senator Graham, members of this distinguished 
subcommittee, thank you for allowing us to testify on this 
important subject.
    As Dr. Stanley stated, I will discuss the methodology used 
to arrive at the recommendations we provided to the Secretary 
of Defense for his ultimate decision.
    The Study Group was comprised of members of the Office of 
the Secretary of Defense (OSD), the Joint Staff, and from each 
of the Services' G/FO management offices.
    Our goal from the very beginning was to develop a 
disciplined, credible, defendable, and executable process that 
would result in meeting the Secretary's intent while accounting 
for the equities of the four Services and the joint commands 
and staffs.
    Four weeks before the Secretary directed the Efficiency 
Study, the Chairman of the Joint Chiefs directed me to begin 
coordinating with the Services to review the G/FO positions. 
Each Service evaluated their own G/FO positions and sorted them 
into four tiers: ``must have,'' ``need to have,'' ``good to 
have,'' and ``nice to have.'' They were directed to put 10 
percent of their positions into the ``nice to have'' category.
    Additionally, drawing upon the knowledge of previous G/FO 
studies, we requested the Services consider various lines of 
operation that we identified as operations, intelligence, 
service support, information operations, cyber, headquarters, 
and command and control and further break those into categories 
identified as military operations, military support, military 
presence, and military experience.
    This information that gave us a head start provided by the 
Services was absolutely essential in our ability to complete 
the study in the allotted amount of time.
    Armed with this information, the Study Group then created a 
set of assumptions that were approved by the Secretary and also 
established business rules to objectively sort the positions 
both vertically within the Service hierarchy and then 
horizontally across the Services. Meeting one of the 
established criteria was not a trigger for position elimination 
but rather a signal to the Study Group that a position required 
further review and justification. This methodology allowed us 
to view every position from multiple angles, and both our 
assumptions and business rules have been submitted with our 
executive summary.
    After 6 weeks of meeting daily, the Study Group had 
completed the vast majority of the work and had identified a 
few areas that required more knowledge and more senior officers 
to make better educated decisions. We then established a G/FO 
Working Group comprised of members from the Joint Staff to take 
a deeper look at those more challenging issues for resolution, 
and these issues consisted of areas of training and education, 
installation management, and accessions.
    The Study Group went after growth, and the majority of the 
growth was in overseas contingency operations (OCO). The 
Secretary approved 103 positions for elimination, of which 47 
are from OCOs; 12 were eliminated from the joint pool, 38 from 
the Services to which the Services agreed, and 6 additional 
positions where they did not agree.
    The Services were full partners in this endeavor in order 
to ensure transparency and elicit responses and discussion that 
would aid us in creating the intended efficiencies. Every 
member of the group had an equal vote at the table. The group 
followed a preplanned agenda to permit the Services to come 
prepared to each meeting to discuss specific positions and 
organizations, and Dr. Stanley and I provided monthly updates 
to the Chairman and the Service Chiefs.
    Thank you for this opportunity to discuss this, and I look 
forward to your questions.
    [The prepared joint statement of Dr. Stanley and Admiral 
Gortney follows:]
 Prepared Joint Statement by Hon. Clifford L. Stanley and VADM William 
                            E. Gortney, USN

  GENERAL AND FLAG OFFICER EFFICIENCY TASK FORCE CO CHAIRS--EXECUTIVE 
                                SUMMARY

    The General and Flag Officer (G/FO) Efficiencies Study Group was 
directed by the Secretary of Defense to:

        <bullet> Conduct a fiscal year 2010-level baseline review of 
        all active G/FO positions and related overhead and 
        accoutrements.
        <bullet> Restructure to best align with mission, 
        responsibilities and relevant counterparts.
        <bullet> Eliminate at least 50 positions over the next 2 years.
        <bullet> Reallocate G/FO billets based on mission.
        <bullet> Redistribute ranks to reduce overhead and bureaucracy.
        <bullet> Develop policies and procedures to manage future G/FO 
        growth.

    The Study Group's analysis looked at common positions that will 
help restructure organizations based upon elimination, redistribution, 
or a reduction in paygrade. The Study Group attempted to move away from 
a pure vertical sorting and did a commonality of functions analysis 
across Service and organizational lines. These commonalities were based 
on like functions such as recruiting and accessions, education and 
training, health care, legal, legislative affairs, installation 
commands, service headquarters staff, and combatant commander 
headquarters/component staffs. The Study Group was cognizant that a 
strength of our military is the differences of our individual Services, 
but looking across Services and comparing similar functions revealed 
areas for possible efficiencies.
    The Study Group recommended 103 positions for elimination (50 over 
the next 2 years and the remainder based on conditions in overseas 
contingency operations). The majority of these positions were directly 
related to the Joint growth over the past 10 years and the reduction of 
Service ``grade creep'' over the course of the protracted war effort. 
Many U.S. service-based operations have moved forward to ensure 
sustained combat operations and have left legacy command structures and 
or redundant 24/7 operations capability. Many of the positions that are 
encumbered by overseas operations in Iraq and Afghanistan were created 
from Service/Joint billets in offset. By eliminating these positions, 
we also reduce the Service strength by their fair share percentage in 
the Joint Pool. The Study Group further recommended reallocating 10 G/
FO positions to increase the Joint Pool based on elimination savings 
from other organizations. Twenty-three positions were reduced from a 
higher to a lower grade of G/FO.
    The most significant difference between this and previous studies 
is that we did not ask for a ``percent bogey'' that just slices the 
overall number equally amongst the Services that has usually resulted 
in a change to legislation to maintain. Because of this difference, our 
recommended policy provides a governance oversight framework for the 
Secretary of Defense and the Military Departments to create a culture 
of self discipline below authorized end strength. Two years ago, the 
Joint Pool policy created the foundation for increased flexibility for 
the Department in the management of positions; this policy will take 
those governance procedures to the next step and create additional 
buffer allocations. It will also create a similar Secretary of the 
Service-controlled buffer.
                                 ______
                                 
    Mr. Chairman, Senator Graham, and members of this distinguished 
subcommittee, thank you for inviting us to testify before you.
    The General and Flag Officer Efficiencies Study Group (Study Group) 
was directed by the Secretary of Defense, and by follow-on guidance 
from the Chair of the Efficiencies Task Force to:

        <bullet> Conduct a fiscal year 2010 level baseline review of 
        all active General and Flag Officer (G/FO) positions and 
        related overhead and accoutrements.
        <bullet> Restructure to best align with mission, 
        responsibilities, and relevant counterparts.
        <bullet> Eliminate at least 50 positions over the next 2 years.
        <bullet> Reallocate G/FO billets based on mission.
        <bullet> Redistribute ranks to reduce overhead and bureaucracy.
        <bullet> Develop policies and procedures to manage future G/FO 
        growth.

    This review differed from the 10 earlier G/FO reviews conducted 
since World War II in several distinct ways: the review was conducted 
while armed conflict was ongoing, the amount of time allotted to 
conduct the review was very compressed, and the objective was not to 
determine how many G/FO were required, but instead to identify 
organizational efficiencies that would allow the Department to more 
effectively align the force with priority missions. The most 
significant difference may be the fact that the Secretary has approved 
a governance structure that will maintain discipline on the number of 
requirements and provide for the first time in the history of the 
Department the flexibility to rapidly adapt Service G/FO force 
structure to emerging requirements.

                              METHODOLOGY

    Based off authorizations proscribed in title 10 U.S.C., 
Sec. Sec. 525 and 526, the Study Group determined there are 952 
authorized and funded G/FO positions in the active duty ranks. That 
baseline number is divided into two sections: Joint authorizations of 
294, and Service authorizations of 658. Conversely, we found that if we 
purely counted the number of G/FO's vice the number of authorized 
positions, the numbers constantly fluctuated due to the 60-day 
transition time (when a G/FO departs a Joint position, that officer is 
considered exempt from Service Statutory ceilings for 60 days), and 
those positions affected by approved retirements or terminal leave. The 
authorized and funded number of 952 defines the fiscal year 2010 
baseline and is the basis for recommended reductions to meet the intent 
of the Secretary of Defense's efficiency goal.
    The preeminent charge for the Study Group was restructuring of the 
Department's G/FO force to best align individual Service G/FO positions 
by mission, responsibilities and its relevant counterparts. To 
accomplish this task, we began by requesting each Military Service's 
evaluation of their Service G/FO positions in the following manner.

        <bullet> Tier: (Prioritization from 1-4)

      1.  Must Have
      2.  Need to Have
      3.  Good to Have
      4.  Nice to Have--Services were required to designate at least 10 
percent of their positions as Tier 4 to force discussion and create 
organizational change

        <bullet> Line Of Operations:

                <bullet> Operations
                <bullet> Headquarters
                <bullet> Service Support

        <bullet> Categories

                <bullet> MO: Military Operations--direct action
                <bullet> MS: Military Support
                <bullet> MP: Military Presence--nature of job supports 
                public support and confidence
                <bullet> ME: Military Experience--nature of job 
                requires years of military experience

    The Study Group, armed with this insight, looked longitudinally 
across the Services at all functions and identified opportunities that 
would not have been visible if the Group had only reviewed the 
structure of a single Service. Study Group business rules were created 
to take subjective data and turn it into an objective study. Meeting 
the business rules was not a trigger for position elimination, but 
rather a signal to the Group that a position required further study and 
justification. This methodology allowed us to view every position from 
many different angles. The business rules were:

        <bullet> The grade is dissimilar to a common position held by 
        another Service
        <bullet> The position resides in an academic setting
        <bullet> The position resides in the Office of the Secretary of 
        Defense or Department of Defense and is not listed as a 
        Director of an organization
        <bullet> The position was assigned as a Tier 4 (nice to have) 
        position
        <bullet> The position was historically filled by a lesser grade 
        or a member of the Senior Executive Service
        <bullet> The position was created as a direct result of an 
        Overseas Contingency Operation
        <bullet> The position can be best served by an SES who 
        possesses scientific/technical expertise
        <bullet> The positions tour length exceeds 4 years and could/
        should be filled by a civilian
        <bullet> The position was created for a specific mission, which 
        has been completed
        <bullet> The position's roles and responsibilities are 
        duplicative with another position
        <bullet> The position had been historically filled with one 
        officer then split into two separate positions
        <bullet> The position is a Deputy or Vice Commander
        <bullet> The position's higher headquarters is realigned under 
        a new organization
        <bullet> The position is located on a Joint Base with multiple 
        GO/FOs that could have originated from a previous service base

    Throughout the process we engaged Service stakeholders and ensured 
transparency to elicit responses and discussion that would aid us in 
creating the intended efficiencies. We conducted a range of meetings 
and published co-chair memos to outline and request feedback through 
each phase of our study. These efforts were coordinated with ongoing 
assessments and parallel studies so that we could capitalize on 
organizational, functional, and senior leadership efficiency 
recommendations and provide a more comprehensive product.
    While a role and mission assessment was not conducted in the 
interest of time, the alignment of the G/FO positions against 
operational and non-operational organizational structures was assessed, 
albeit in a necessarily cursory manner. The results of this assessment 
were included in our recommendations to the Secretary of Defense. 
Identification of additional efficiencies in the future may be 
possible, but we are confident that the proposed recommendations 
capture the major efficiencies readily available in the existing 
environment.

                                RESULTS

    The Study Group recommended 110 positions and the Secretary of 
Defense ultimately approved 103 G/FO positions for elimination. Twenty-
three additional positions were reduced from a higher to a lower grade 
of G/FO, and 10 additional positions were restructured or reallocated 
(i.e. to support establishment of the new Cyber Command). Instead of 
recommending changes to statutory allowances as has been done in the 
past, at this time the Secretary of Defense instead has chosen to allow 
the Services to use these 103 efficiency positions to establish Service 
buffers and we have developed a new framework for managing the G/FO 
force below authorized end strengths.

                               JOINT POOL

    Two years ago, creation of the Joint Pool policy built a foundation 
for increased position management flexibility by providing the 
Secretary of Defense with G/FO authorizations he could manage based on 
operational needs. Our new recommended policy will take those Joint 
Pool governance procedures to the next step by creating additional 
buffer allocations, as well as, by creating similar Service Secretary-
controlled buffers. To facilitate reprioritization of Joint G/FO 
positions and to set a policy of self governance based on the 
efficiency recommendations, 86 of the 324 G/FO authorizations provided 
for under title 10, U.S.C, section 526 will be held as a buffer by the 
Secretary of Defense for future requirements and to facilitate 
temporary requirements. Additionally, Service minimum required 
contributions to the Joint Pool were lowered as follows:

        <bullet> U.S. Army--82 from 102
        <bullet> U.S. Navy--60 from 74
        <bullet> U.S. Air Force--75 from 92
        <bullet> U.S. Marine Corps--21 from 26

    These 238 designated positions will be excluded from the Military 
Service's G/FO grade and strength limitations specified in title 10, 
U.S.C., Sec. Sec. 525 and 526 after required information, has been 
provided to Congress and 12 months have elapsed, unless sooner 
authorized by Congress. The allocations are predicated on the Military 
Services maintaining their minimum number of Joint G/FO in Joint Pool 
positions; should one Service fail to maintain its allocation, those 
positions may be reallocated to another Service. To provide a stable 
promotion planning platform, a 5 year rolling average of encumbered 
Joint Pool positions will be used as the method for calculating future 
allocations.

        <bullet> Offsets are required for each new Joint Pool position 
        unless the Secretary of Defense decides to increase the Joint 
        Pool beyond the 238 previously-distributed authorizations; such 
        an increase would result in the reallocation of the increase to 
        the Military Services.
        <bullet> Temporary allocation of additional G/FO authorizations 
        for new positions added to the Joint Pool are included in the 
        determination of a Military Service's average participation 
        rate in the Joint Pool.
        <bullet> Once the incumbent in the previously-designated 
        position departs, the Service filling the new Joint Pool 
        position will begin receiving credit for filling the position.

                              SERVICE POOL

    Using the Joint Pool as a model for a policy vice legislative-
driven strength limiting mechanism; a Service Pool managed by the 
Service Secretaries in the same manner the Joint Pool buffer is managed 
by the Secretary of Defense will be created from the 44 remaining 
positions (103 recommended eliminations minus the 59 which were 
designated to the Joint Pool buffer). The Service Pools will be used as 
a self governance tool to maintain the reductions realized by the 
efficiency study. By no means is this intended to impact the Services' 
ability or responsibility to man, train, and equip in accordance with 
title 10, U.S.C. The current distribution of commissioned officers on 
active duty in G/FO grades is legislated in title 10, U.S.C., Sec. 525, 
(excluding Sec. 528) and has the following appointment limitations:

        <bullet> U.S. Army--total of 230

                <bullet> 7 officers in the grade of general
                <bullet> 45 officers in a grade above the grade of 
                major general
                <bullet> 90 officers in the grade of major general

        <bullet> U.S. Air Force--total of 208

                <bullet> 9 officers in the grade of general
                <bullet> 43 officers in a grade above the grade of 
                major general
                <bullet> 73 officers in the grade of major general

        <bullet> U.S. Navy--total of 160

                <bullet> 6 officers in the grade of admiral
                <bullet> 32 officers in a grade above the grade of rear 
                admiral
                <bullet> 50 officers in the grade of rear admiral

        <bullet> U.S. Marine Corps--total of 60

                <bullet> 2 officers in the grade of general
                <bullet> 15 officers in a grade above the grade of 
                major general
                <bullet> 22 officers in the grade of major general

    Based on the Study Group's recommendation that appointment 
limitations should not change in statute but should be limited by 
policy, the new Department-limited distributions will be:

        <bullet> U.S. Army--total of 219

                <bullet> 7 officers in the grade of general
                <bullet> 45 officers in a grade above the grade of 
                major general
                <bullet> 90 officers in the grade of major general

        <bullet> U.S. Air Force--total of 186

                <bullet> 9 officers in the grade of general
                <bullet> 43 officers in a grade above the grade of 
                major general
                <bullet> 73 officers in the grade of major general

        <bullet> U.S. Navy--total of 149

                <bullet> 6 officers in the grade of admiral
                <bullet> 32 officers in a grade above the grade of rear 
                admiral
                <bullet> 50 officers in the grade of rear admiral

        <bullet> U.S. Marine Corps--total of 60

                <bullet> 2 officers in the grade of general
                <bullet> 15 officers in a grade above the grade of 
                major general
                <bullet> 22 officers in the grade of major general

    To facilitate future and temporary requirements without the need 
for statutory relief each time, the Military Departments will be 
allowed to keep as a buffer efficiency positions identified by the 
Study Group. Services buffers are as follow:

        <bullet> U.S. Army--11
        <bullet> U.S. Air Force--22
        <bullet> U.S. Navy--11
        <bullet> U.S. Marine Corps--0

    Each Military Department Secretary is responsible for:

        <bullet> Establishing procedures for the temporary use of these 
        authorizations. Each authorization may only be used for an 
        encumbered position for a period not to exceed 2 years.
        <bullet> Ensuring the number of authorizations are not 
        exceeded.
        <bullet> Providing a report of all G/FO to the USD(P&R) through 
        the CJCS semi-annually.
        <bullet> Submitting requests for increases to the authorized 
        number of Military Service G/FO positions to the Secretary of 
        Defense through the CJCS and the USD(P&R).

    The implementation of these changes requires careful monitoring by 
all involved to avoid ill-effect to the development and maintenance of 
an appropriately experienced G/FO force. Particular attention is 
necessary in order to retain warfighting experience gained in Iraq and 
Afghanistan. As a means of providing the necessary promotion stability 
and for the maintenance of an effective bench of candidates, positions 
identified for elimination will only be redesignated upon the departure 
of the incumbent. This delay in elimination or redesignation will 
mitigate the need for the use of extraordinary authorities to deal with 
early retirements and unplanned departures from Joint positions. 
Implementation began January 1, 2011. By December 30, 2013 we will have 
eliminated 50 G/FO positions as directed by the Secretary at the outset 
of our Study Group's work. Service quarterly updates to the Secretary 
of Defense have maintained a positive control on the implementation and 
execution of the efficiency reductions.
    Thank you for the opportunity to provide you with an explanation of 
our Study Group's analysis and recommendations combined with our plan 
for implementation.

    Senator Webb. Thank you very much, Admiral.
    Dr. Freeman, welcome.

STATEMENT OF DR. BENJAMIN J. FREEMAN, NATIONAL SECURITY FELLOW, 
                PROJECT ON GOVERNMENT OVERSIGHT

    Dr. Freeman. Thank you, Senator Webb, for having me. Also, 
thank you, Ranking Member Graham and the members of the 
subcommittee as well.
    I am pleased to have the opportunity to present the POGO's 
investigation of the increasing number of G/FOs in the U.S. 
military. Founded in 1981, POGO is a nonpartisan, independent 
watchdog that champions good government reforms. We have a long 
history of examining the size of the military's officer ranks, 
especially in relation to the number of enlisted personnel at 
DOD.
    Our interest in the number of officers in the U.S. military 
was reignited in August 2010 when the Secretary of Defense 
launched these DOD efficiencies initiatives. They limited the 
increasing proportion of officers relative to enlisted 
personnel, as well as the tendency for higher ranking officers 
to do work that could reasonably be done by lower ranking 
officers. This is known as ``brass creep'' or as ``officer or 
rank inflation.''
    The focus of my testimony here is the growing proportion of 
G/FOs relative to the rest of the uniformed force, a subset of 
brass creep that I refer to as ``star creep.'' While star creep 
has occurred since at least the end of World War II, the pace 
of star creep has accelerated in the 20 years since the Cold 
War ended, culminating in today's unprecedented top-heavy force 
structure. The average G/FO today has nearly 500 fewer 
uniformed personnel under their command than they did in 1991, 
and as of June 2011, the U.S. military had more three- and 
four-star officers than at any point since the Cold War ended.
    Whether DOD has expanded or contracted, star creep has 
persisted. During the drawdown in the decade following the end 
of the Cold War, lower ranks were cut much more than higher 
ranks. In the decade since the war in Afghanistan began, higher 
ranks grew at a much faster rate than lower ranks. The top 
officer ranks, G/FOs, have grown faster than enlisted and lower 
officer ranks, and the three- and four-star ranks have 
increased faster than all other components of DOD's force 
structure. Even with the onset of the war in Afghanistan, the 
U.S. military continued to become more top heavy, which is 
noteworthy because this is the first major U.S. conflict in 
which the military has increased the G/FO ranks at a higher 
rate than all other uniformed ranks.
    Throughout the conflicts in Iraq and Afghanistan, the 
average number of uniformed personnel beneath each G/FO fell. 
In fact, from 2001 to 2007, DOD added 28 G/FOs while cutting 
more than 5,500 uniformed personnel from lower ranks. This 
trend towards a more top-heavy military continued from 2007 to 
the present, with the growth rate of the top brass nearly 
doubling the growth rate of lower ranks.
    Every branch of the military has increased its G/FO ranks, 
especially the three- and four-star ranks since the tragic 
events of September 11, 2001, but the disparities between the 
branches are surprising, as Chairman Webb has already noted. 
The Army and Marine Corps, which bear the greatest burden in 
the war on terror, have added far fewer top brass than the Navy 
and the Air Force. In fact, the Navy and the Air Force have 
each added more top brass than the Army and Marine Corps 
combined. The Navy and the Air Force added this top brass while 
cutting more than 70,000 enlisted personnel and lower ranking 
officers.
    Furthermore, the Air Force has a historically low number of 
planes per general, and the Navy is close to having more 
admirals than ships for them to command.
    This progression towards a more top-heavy force is not 
without its consequences. It is a burden for both taxpayers and 
military commanders. The cost of officers increases markedly 
with their rank so taxpayers are overpaying whenever a G/FO is 
in a position that could be filled by a lower ranking officer.
    Additionally, military personnel experts know that 
unnecessarily top-heavy organizations hinder military 
effectiveness and they slow decision cycles. Former Secretary 
of Defense Robert Gates said that in some cases the gap between 
him and an action officer may be as high as 30 layers, and this 
results in a ``bureaucracy which has the fine motor skills of a 
dinosaur.''
    The growth in DOD's top ranks documented in our 
investigation will not be fully eliminated when military 
operations in Iraq and Afghanistan end, nor will Secretary 
Gates' commendable efficiencies initiatives fully reverse this 
trend toward a more top-heavy military, unfortunately.
    To further combat star creep and gain a better 
understanding of its cost to taxpayers and impact on military 
effectiveness, much more work is needed. We believe that the 
Government Accountability Office, DOD's Director of Cost 
Assessment and Program Evaluation, and Secretary of Defense 
Leon Panetta's office can contribute significantly to this 
effort. We implore the subcommittee to utilize these invaluable 
resources.
    For our part, we at POGO will continue our work to better 
understand this issue, and that is why we are grateful for this 
hearing. We look forward to learning more from the other 
panelists and the members of the subcommittee.
    I look forward to answering any questions you may have, and 
I thank you once again, Chairman Webb and Ranking Member 
Graham, for holding this hearing.
    [The prepared statement of Dr. Freeman follows:]

             Prepared Statement by Benjamin Freeman, Ph.D.

                           EXECUTIVE SUMMARY

    The increasing proportion of officers relative to enlisted 
personnel, as well as the tendency for higher ranking officers to do 
work that could be done by lower ranking officers, is known as brass 
creep or as officer or rank inflation. The pace of brass creep has 
accelerated in the 20 years since the Cold War ended, culminating in 
today's unprecedented top-heavy force structure.
    Whether the Department of Defense (DOD) has expanded or contracted, 
brass creep has persisted. During the drawdown in the decade following 
the end of the Cold War, lower ranks were cut much more than higher 
ranks. In the decade since the war in Afghanistan began, higher ranks 
have grown at a much faster rate than lower ranks. This is as true 
within the officer ranks as it is between the enlisted and officer 
ranks. The top officer ranks, general and flag officers,\1\ have grown 
faster than lower officer ranks, and three- and four-star positions 
have increased faster than all other components of the DOD's force of 
uniformed personnel--a phenomenon we call star creep.
---------------------------------------------------------------------------
    \1\ General and flag officers include all generals in the Air 
Force, Army, and Marines and all admirals in the Navy.
---------------------------------------------------------------------------
    Since the war in Afghanistan began, every branch of the military 
has increased its general or flag officer ranks, especially their 
three- and four-star ranks, but the disparities between the branches 
are surprising. The Army and Marines, which bear the greatest burden in 
the war on terror,\2\ have added far fewer top brass than the Navy and 
Air Force. In fact, the Navy and Air Force have each added more top 
brass than the Army and Marines combined, and the Navy and Air Force 
added this top brass while cutting more than 70,000 enlisted personnel 
and lower ranking officers. Furthermore, the Air Force has a 
historically low number of planes per general and the Navy is close to 
having more admirals than ships for them to command.
---------------------------------------------------------------------------
    \2\ Defense Manpower Data Center, Data, Analysis and Programs 
Division, Global War on Terrorism: Casualties by Military Service 
Component--Active, Guard, and Reserve, October 7, 2001 through August 
29, 2011. http://siadapp.dmdc.osd.mil/personnel/CASUALTY/gwot--
component.pdf (Downloaded September 8, 2011)
---------------------------------------------------------------------------
    This progression towards a more top-heavy force is a burden for 
taxpayers and military commanders. The cost of officers increases 
markedly with their rank, so taxpayers are overpaying whenever a 
general or flag officer is in a position that could be filled by a 
lower ranking officer. Additionally, some military personnel experts 
say unnecessarily top-heavy organizations hinder military effectiveness 
as they slow decision cycles.\3\ Former Secretary of Defense Robert 
Gates said that ``in some cases the gap between me and an action 
officer may be as high as 30 layers,'' and this results in a 
``bureaucracy which has the fine motor skills of a dinosaur.'' \4\
---------------------------------------------------------------------------
    \3\ PowerPoint presentation by Retired Army Major Donald E. 
Vandergriff on Officer Manning: Armies of the past. http://
pogoarchives.org/m/ns/officers--briefing.ppt (hereinafter Officer 
Manning: Armies of the past)
    \4\ John Barry and Evan Thomas, ``A War Within: Robert Gates has 
one last, crucial mission before he leaves office, and it's not in 
Afghanistan or Iraq. It's in Washington--within the hallowed halls of 
the Pentagon,'' September 12, 2010. http://www.thedailybeast.com/
newsweek/2010/09/12/what-gates-plans-to-do-before-he-leaves-office.html 
(Downloaded September 8, 2011) (hereinafter ``A War Within'')
---------------------------------------------------------------------------
    To reverse this trend towards a more top-heavy force and gain a 
better understanding of the causes and consequences of star creep we 
recommend that Secretary of Defense Leon Panetta continue to implement 
the general and flag officer efficiencies initiated under Secretary 
Gates, and that he begin a new round of initiatives to further reduce 
the general and flag officer ranks. To aid in this effort, the DOD's 
Director of Cost Assessment and Program Evaluation should be asked to 
investigate the impact of star creep, and brass creep more broadly, on 
DOD payroll expenditures and determine if it hinders military 
effectiveness. The Government Accountability Office can also be tasked 
with aiding this effort by investigating the root causes of star creep 
and working to identify unnecessary general and flag officer positions.
                                 ______
                                 
    Chairman Webb, Ranking Minority Member Graham, and the 
distinguished members of the subcommittee, I am pleased to have the 
opportunity to present the Project On Government Oversight's (POGO) 
investigation of the increasing number of general and flag officers in 
the U.S. military.
    Founded in 1981, POGO is a nonpartisan independent watchdog that 
champions good government reforms. POGO's investigations into 
corruption, misconduct, and conflicts of interest achieve a more 
effective, accountable, open, and ethical Federal Government. POGO has 
a long history of examining the size of the military's officer ranks, 
especially in relation to the number of enlisted personnel at DOD.\5\
---------------------------------------------------------------------------
    \5\ Project On Government Oversight, More Brass, More Bucks: 
Officer Inflation in Today's Military, March 1, 1998. http://
pogoarchives.org/m/ns/officer-inflation-report-19980301.pdf and Project 
on Military Procurement, Officer Inflation: Its Cost to the Taxpayer 
and to Military Effectiveness, June 1982, revised October 1987. http://
pogoarchives.org/m/ns/officer-inflation-19871001.pdf (hereinafter 
Officer Inflation: Its Cost to the Taxpayer and to Military 
Effectiveness)
---------------------------------------------------------------------------
    The increasing proportion of officers relative to enlisted 
personnel, as well as the tendency for higher ranking officers to do 
work that could be done by lower ranking officers, is known as brass 
creep or as officer or rank inflation. I refer to the rising proportion 
of general and flag officers relative to the rest of the uniformed 
force (officers and enlisted) as star creep, which is a subset of brass 
creep.
    Before I go into more detail on star creep, I want to note that 
this is only a partial and mostly descriptive account of the 
composition of DOD personnel. For instance, the rise of joint commands 
since enactment of the Goldwater-Nichols Act in the 1980s \6\ is likely 
a root cause of much of the star creep we have seen since the law's 
passage, however, we at POGO have not fully evaluated this causal 
relationship. Furthermore, a deeper examination of the military 
Reserves and National Guard components, the DOD civilian workforce, and 
DOD service contractor employee workforce is needed for a more holistic 
understanding of the DOD's total force structure. Many experts have 
told POGO that the Reserves, National Guard, and DOD civilian workforce 
suffer from issues similar to those faced by the regular active duty 
uniformed force, i.e. they are too top-heavy. We have not, as of yet, 
examined this claim.
---------------------------------------------------------------------------
    \6\ Goldwater-Nichols Act of 1986, U.S.C., title 10, subtitle A, 
part I, chapter 5. http://www.au.af.mil/au/awc/awcgate/congress/title--
10.htm (Downloaded September 8, 2011).
---------------------------------------------------------------------------
    In addition, my testimony only touches on the financial costs of 
star creep. Furthermore, analysis is required to determine the proper 
balance of general and flag officers relative to other DOD personnel, 
including DOD uniformed, civilian, and contractor personnel. The 
recently released final report by the Commission on Wartime Contracting 
has advanced understanding of the costs of the mixed uniformed, 
civilian government employee, and contractor employee force in Iraq and 
Afghanistan.\7\ However, the situation stateside appears to be quite 
different, where the government pays billions more annually to hire 
contractors than it would to hire Federal employees to perform 
comparable services, as described in POGO's recently released report, 
Bad Business: Billions of Taxpayer Dollars Wasted on Hiring 
Contractors. But, cost is not the only factor that should be considered 
when deciding on the right mix between uniformed, government civilian, 
and contractor personnel--military effectiveness, whether work is 
inherently governmental or closely associated with inherently 
governmental functions, and whether frameworks exist for effective 
accountability for the type of personnel in question are also factors 
that should be weighed. Thus, POGO will be doing considerably more work 
on these issues and we hope your hearing sheds light on how to achieve 
the best force at the best cost.
---------------------------------------------------------------------------
    \7\ Commission on Wartime Contracting in Iraq and Afghanistan, 
Final Report to Congress: Transforming Wartime Contracting: Controlling 
costs, reducing risks, August 2011. http://www.wartimecontracting.gov/
docs/CWC--FinalReport-lowres.pdf (Downloaded September 8, 2011) The 
report states that most local and third country national service 
contractors used in long contingency operations are more cost-effective 
than uniformed personnel and Federal civilian employees. The picture is 
more mixed when examining high-skill jobs, according to the report: 
dwell time costs make uniformed personnel more expensive, but 
``contractor and Federal civilian costs are roughly comparable.''
---------------------------------------------------------------------------
    Our interest in the number of officers in the U.S. military was 
reignited in August 2010, when Secretary of Defense Robert Gates 
released a ``Statement on Department Efficiency Initiatives'' that 
lamented the increase in DOD senior personnel, noting that we have:

          . . . seen an acceleration of what Senator John Glenn more 
        than 20 years ago called ``brass creep,'' a situation where 
        personnel of higher and higher rank are assigned to do things 
        that could reasonably be handled by personnel of lower rank. In 
        some cases, this creep is 1fueled by the desire to increase 
        bureaucratic clout or prestige of a particular service, 
        function or region, rather than reflecting the scope and duties 
        of the job itself. In a post-September 11 era, when more and 
        more responsibility, including decisions with strategic 
        consequences, is being exercised by more junior officers in 
        theater, the Defense Department continues to maintain a top-
        heavy hierarchy that more reflects 20th century protocols than 
        21st century realities.\8\
---------------------------------------------------------------------------
    \8\ Department of Defense, ``DOD News Briefing with Secretary Gates 
from the Pentagon,'' August 9, 2010. http://www.defense.gov/
transcripts/transcript.aspx?transcriptid=4669 (Downloaded September 8, 
2011) (hereinafter ``DOD News Briefing with Secretary Gates from the 
Pentagon'')

    While this ``brass creep'' Gates and Senator Glenn referred to has 
occurred since the beginning of the 20th century, the pace of brass 
creep has accelerated in the 20 years since the Cold War ended, 
culminating in today's unprecedented top-heavy force structure. In 
fact, whether the DOD has expanded or contracted, brass creep has 
persisted. During the drawdown in the decade following the end of the 
Cold War, lower ranks were cut much more than higher ranks. In the 
decade since the war in Afghanistan began, higher ranks have grown at a 
much faster rate than lower ranks. This is as true within the officer 
ranks as it is between the enlisted and officer ranks. The top officer 
ranks, general and flag officers,\9\ have grown faster than lower 
officer ranks, and three- and four-star positions have increased faster 
than all other components of the DOD's force structure--a phenomenon we 
call star creep. I also want to note that, although my analysis is 
focused on the period since the end of the Cold War through the 
present, this is not meant to imply that I believe the ratio of general 
and flag officers to the uniformed force at the end of the Cold War was 
necessarily the ``correct'' ratio.
---------------------------------------------------------------------------
    \9\ General and Flag Officers include all Generals in the Air 
Force, Army, and Marines and all Admirals in the Navy.
---------------------------------------------------------------------------
    Since the war in Afghanistan began, every branch of the military 
has increased its general or flag officer ranks, especially their 
three- and four-stars, but the disparities between the branches are 
surprising. The Army and Marines, which bear the greatest burden in the 
war on terror,\10\ have added far fewer top brass than the Navy and Air 
Force. In fact, the Navy and Air Force have each added more top brass 
than the Army and Marines combined. Furthermore, the Air Force has a 
historically low number of planes per general and the Navy is close to 
having more admirals than ships for them to command.
---------------------------------------------------------------------------
    \10\ Defense Manpower Data Center, Data, Analysis and Programs 
Division, Global War on Terrorism: Casualties by Military Service 
Component--Active, Guard, and Reserve, October 7, 2001 through August 
29, 2011. http://siadapp.dmdc.osd.mil/personnel/CASUALTY/gwot--
component.pdf (Downloaded September 8, 2011).
---------------------------------------------------------------------------
    This progression towards a more top-heavy force is a burden for 
taxpayers and military commanders. The cost of officers increases 
markedly with their rank, so taxpayers are overpaying whenever a 
general or flag officer is in a position that could be filled by a 
lower ranking officer. The costs involved are more than just 
compensation for that officer; the subordinate personnel assigned to 
and overhead associated with a general or flag officer, particularly 
three- and four-star positions, are the greatest additional expense. 
Additionally, some military personnel experts say unnecessarily top-
heavy organizations with excessive layers of ``middle management'' 
hinder military effectiveness as they slow decision cycles.\11\ Gates 
claimed that ``in some cases the gap between me and an action officer 
may be as high as 30 layers,'' and this results in a ``bureaucracy 
which has the fine motor skills of a dinosaur.''\12\
---------------------------------------------------------------------------
    \11\ PowerPoint presentation by Retired Army Major Donald E. 
Vandergriff on Officer Manning: Armies of the past. http://
pogoarchives.org/m/ns/officers--briefing.ppt (hereinafter Officer 
Manning: Armies of the past)
    \12\ John Barry and Evan Thomas, ``A War Within: Robert Gates has 
one last, crucial mission before he leaves office, and it's not in 
Afghanistan or Iraq. It's in Washington--within the hallowed halls of 
the Pentagon,'' September 12, 2010. http://www.thedailybeast.com/
newsweek/2010/09/12/what-gates-plans-to-do-before-he-leaves-office.html 
(Downloaded September 8, 2011) (hereinafter ``A War Within'')
---------------------------------------------------------------------------
    there are fewer dod personnel for each general and flag officer
    Since World War II ended, the number of general or flag officers 
per uniformed personnel has been increasing \13\--reaching an all-time 
high in 2010 of nearly 7 general and flag officers per every 10,000 
uniformed personnel.\14\ This is an increase of more than half a 
general or flag officer per 10,000 uniformed personnel than when the 
war in Afghanistan began; one and a half more than when the Cold War 
ended; and five more than when World War II ended, as Figure 1 shows. 
There has been a fairly constant increase in the ratio of general and 
flag officers compared to all other uniformed personnel since the end 
of the Cold War, even though the military underwent a contraction 
during the 1990s and an expansion following the onset of the wars in 
Afghanistan and Iraq.
---------------------------------------------------------------------------
    \13\ All uniformed personnel data prior to 1989 taken from POGO's 
prior officer inflation report (Table 1): Officer Inflation: Its Cost 
to the Taxpayer and to Military Effectiveness. Data from 1989 to 2005 
are from the Selected Manpower Statistics Table 2-15: Department of 
Defense, Statistical Information Analysis Division,'' Workforce 
Publications.'' http://siadapp.dmdc.osd.mil/personnel/Pubs.htm 
(Downloaded September 8, 2011) Uniformed personnel data from 2006 to 
the present are as of the end of each fiscal year in tables found here: 
Department of Defense, Statistical Information Analysis Division, 
``Military Personnel Statistics.'' http://siadapp.dmdc.osd.mil/
personnel/MILITARY/miltop.htm (Downloaded September 8, 2011) 
(hereinafter ``Military Personnel Statistics'') All branch specific 
personnel data taken from the DOD's ``Active Duty Military Personnel by 
Service by Rank/Grade'' tables from September of the year in question, 
except for 2011 data, which were taken from April (the most current 
month available as of this writing): ``Military Personnel Statistics''
    \14\ This is an all-time high for years in which reliable DOD 
personnel data are available, which includes only the post-World War II 
era. This constrained time period is the result of general/flag officer 
data being publicly unavailable for most years prior to World War II.
---------------------------------------------------------------------------
    As of April 2011, there were 964 general and flag officers. By 
comparison, at the end of the Cold War the United States had 1,017 
general and flag officers. Thus, there has only been a nominal decrease 
in general and flag officers even though the number of active duty 
uniformed personnel has decreased by roughly 28 percent, the Air Force 
flies 35 percent fewer planes,\15\ and the Navy has 46 percent fewer 
ships in its fleet.\16\ In sum, the number of general and flag officers 
has barely fallen despite double-digit percentage drops in the size of 
the forces they command.
---------------------------------------------------------------------------
    \15\ Air Force Historical Studies Office, ``USAF Statistics: USAF 
Statistical Digests and Summaries.'' http://www.afhso.af.mil/
usafstatistics/index.asp (Downloaded September 8, 2011)
    \16\ Naval History & Heritage Command, ``U.S. Navy Active Ship 
Force Levels, 1886-present.'' http://www.history.navy.mil/branches/
org9-4.htm (Downloaded September 8, 2011) (hereinafter ``U.S. Navy 
Active Ship Force Levels, 1886-present'')
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    This trend towards a top-heavy force structure continued during the 
post-Cold War drawdown from 1991 to 2001. During this time period, the 
DOD cut just over 600,000 uniformed personnel--a decline of 
approximately 30 percent--but only 146 general and flag officer 
positions were eliminated--a decline of less than 15 percent. Thus, the 
remaining general and flag officers were responsible for commanding far 
fewer personnel when the war in Afghanistan began, and this trend 
towards commanding fewer personnel continued even after the conflicts 
in Afghanistan and Iraq began, as can be seen in Figure 2.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    There were 871 general and flag officers when the war in 
Afghanistan began in 2001, and by April 2011, there were 964.\17\ Yet 
the enlisted ranks have increased at a smaller rate during the 
conflicts in Iraq and Afghanistan than the growth than general and flag 
officers. This trend is the opposite of what has occurred in prior 
major conflicts. This is the first major U.S. conflict in which the 
military has increased the general and flag officer ranks at a higher 
rate than all other ranks. From 2001 to April 2011, the DOD added 93 
general and flag officers and 47,604 uniformed personnel (17,739 
officers and 29,196 enlisted personnel) to its payroll, which amounts 
to adding one general or flag officer for every 512 uniformed 
personnel. To put this in perspective, in 2000, the average general or 
flag officer commanded approximately 1,590 uniformed personnel. In 
other words, throughout these conflicts the DOD has employed fewer 
personnel per general or flag officer than it did in peacetime, which 
is counterintuitive and historically unprecedented.
---------------------------------------------------------------------------
    \17\ Unless otherwise noted, all data come from the last month 
(September) of the fiscal year in question. Between September 2010 and 
April 2011, which was the most recent data available as of this 
writing, Gates began his efficiency initiatives that reduced the total 
number of general and flag officers. Thus, the 2011 totals for general 
and flag officers are lower than the 2010 totals.
---------------------------------------------------------------------------
    During peacetime, there are fewer personnel per general or flag 
officer because a Reserve of lower ranks is not as essential as a 
Reserve of top commanders. The latter take much longer to groom than 
all other personnel, thus the military must have a stable of general 
and flag officers ready in the event a conflict breaks out to train and 
command forces in that conflict. This is the U.S. mobilization 
doctrine, which argues that the numbers of officers should be kept top 
heavy to provide a pool to lead new formations in time of 
mobilization.\18\ During a conflict, conversely, the number of 
enlisted, lower-level officers, and civilians should, in theory, 
increase at a faster rate than the top brass.
---------------------------------------------------------------------------
    \18\ Officer Manning: Armies of the past
---------------------------------------------------------------------------
    This pattern has not held during the wars in Iraq and Afghanistan. 
During the first several years of these conflicts, from 2001 to 2007, 
the number of DOD uniformed personnel actually decreased by more than 
5,500,\19\ while the number of general and flag officers increased by 
28. From 2007 through April 2011, the U.S. military added over 13,000 
officers and just over 39,000 enlisted personnel for a total increase 
in uniformed personnel of 52,937, a 3.8 percent increase. During this 
same period, the total number of general and flag officers increased by 
65, a 7 percent increase. Thus, during the current conflicts the growth 
of the top brass has outpaced the growth of the total uniformed force.
---------------------------------------------------------------------------
    \19\ As we document below, this aggregate figure masks the fact 
that the Air Force and the Navy cut personnel, while the Army and 
Marines added personnel.
---------------------------------------------------------------------------
Growth in the Number of Three- and Four-Star General and Flag Officers
    The increase in the very top brass--three- and four-star officers--
further illustrates star creep within the DOD. The number of three- and 
four-star general and flag officers (lieutenant-generals, vice-
admirals, generals, and admirals) has increased since the Cold War 
ended, as depicted in Figure 3. In 1991, there were 157 three- and 
four-stars.\20\ By April 2011, they had swollen to 194--an increase of 
24 percent. We have more three- and four-stars now that at any point 
since the Cold War ended. Since 1991, no DOD personnel group has grown 
at a faster rate. From 1991 through April 2011, officer ranks shrank by 
more than 56,000 (19 percent) and enlisted personnel decreased by 
nearly half a million (30 percent).
---------------------------------------------------------------------------
    \20\ From 1989 until the end of the Cold War the number of three- 
and four-star billets remained constant at 157. In 1994, during the 
post-Cold War drawdown, this number drops to just 140. Thus, using 1991 
data provides a more conservative estimate of the rise in top billets.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The increase in the very top brass has contributed to the top-heavy 
nature of the DOD force structure. As depicted in Figure 4, the number 
of three- and four-star general and flag officers per 10,000 DOD 
uniformed personnel has increased markedly since 1991. The greatest 
increase occurred during the 10 years following the end of the Cold 
War, but even after the war in Afghanistan began the same upward trend 
continued. As of April 2011, there were 1.37 three- and four-star 
general and flag officers for every 10,000 uniformed DOD personnel--an 
increase of nearly 20 percent since the war in Afghanistan began. 
Currently, the average three- and four-star officer has approximately 
7,300 uniformed personnel under their command, yet just 15 years ago 
the average three- and four-star general or flag officer had more than 
10,000 uniformed personnel under their command. Even if the 155,000 
service contractors working in Iraq and Afghanistan \21\ are accounted 
for, the average three- and four-star officer still has far fewer 
personnel under their command than they did prior to these conflicts.
---------------------------------------------------------------------------
    \21\ This total service contractor figure is as of March 2011, 
according to a recent CRS report: Congressional Research Service, 
Department of Defense Contractors in Afghanistan and Iraq: Background 
and Analysis (R40764) , May 13, 2011. http://www.fas.org/sgp/crs/
natsec/R40764.pdf (Downloaded September 8, 2011)
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The rise of the top brass during the current conflicts in Iraq and 
Afghanistan compared to other DOD personnel is noteworthy. From 2001 to 
2011 the number of officers per three- and four-star general or flag 
officers dropped by 172 and the number of enlisted personnel per three- 
and four-star officer dropped by 1,253. Figure 5 compares the growth of 
three- and four-star officers to other categories of military 
personnel. The three- and four-star ranks have increased twice as fast 
as one- and two-star general and flag officers, three times as fast as 
the increase in all officers, and almost 10 times as fast as the 
increase in enlisted personnel. If you imagine it visually, the shape 
of U.S. military personnel has shifted from looking like a pyramid to 
beginning to look more like a skyscraper (i.e. higher ranks having 
fewer lower ranking personnel under them rather than more).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Star Creep Across the Services Since September 11
    While star creep is the general trend across the military, there 
have been considerable and counterintuitive variances across the 
Services since September 2001. Figure 6 tracks the number of general 
and flag officers per 10,000 uniformed personnel in each branch of the 
military from September 2001 to April 2011.\22\ The Marines have the 
fewest generals and are also the leanest force (but still top heavy 
compared to historical Marine force compositions), averaging just over 
four generals for every 10,000 uniformed personnel. At the other end of 
the spectrum, the Air Force is the most top-heavy branch with almost 10 
generals for every 10,000 airmen. In other words, the Air Force is two-
and-a-half times as top-heavy as the marines, and in absolute terms 
they have more than three times as many generals as the Marines. With 
312 general officers, the Air Force is tied with the Army for most 
general and flag officers of any Service, even though the Air Force has 
approximately 237,000 fewer uniformed personnel than the Army.
---------------------------------------------------------------------------
    \22\ Source for all branch specific general/flag officer ratios: 
``Military Personnel Statistics,'' (September of the year in question 
for all years except 2011). April 2011 was the most recent data 
available as of this writing. Additionally, the DOD does not break out 
civilian personnel data for the Marines, thus all branch comparisons 
are for total uniformed personnel and do not include civilians in each 
branch.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The general pattern of the Army and Marines becoming leaner, as 
illustrated in Figure 6, is logical given that the ground wars in Iraq 
and Afghanistan have placed a much greater burden on the fighting 
forces in the Marines and Army compared with the Navy and Air Force. 
The growth in the number of generals or flag officers in each branch 
during these wars, however, appears to be much less logical. Table 1 
lists the total generals or flag officers in each branch as of April 
2011, the number added since September 2001, and the number of those 
additions that were three- and four-stars. The Air Force led the way, 
adding 40 generals between September 2001 and April 2011, an increase 
of 15 percent. But, the Navy actually increased its highest ranks at a 
greater rate than any other branch, adding 36 flag officers (an 
increase of 17 percent), including 15 three- and four-star admirals (an 
increase of nearly 40 percent).\23\
---------------------------------------------------------------------------
    \23\ Source for this and all in grade/rank calculations: ``Military 
Personnel Statistics.'' The charts are under ``Active Duty Military 
Personnel by Service by Rank/Grade'' and all comparisons are between 
September 2001 and April 2011 (the most recent data available as of 
this writing).
---------------------------------------------------------------------------
    Every branch added top brass, but the branches engaged in the 
majority of all combat operations since September 2001 (the Army and 
Marines) have added far fewer than the other two branches. The Army and 
Marines, combined, added far less than half the top brass of either the 
Navy or Air Force. The Navy and Air Force, combined, also added more 
three- and four-star ranks (20) than did the Army and Marines combined 
(17). These differences between the services are laid out in Table 1.
    On average, there are now approximately 185 fewer enlisted 
personnel per general in the Air Force and 400 fewer enlisted per 
admiral in the Navy than there were just 10 years ago.
    Similarly, there are more than 40 fewer officers per general or 
flag officer in both the Air Force and Navy today than there were in 
2001.
    But this only begins to scratch the surface of this irregularity. 
During this same time period the Navy and Air Force cut both enlisted 
personnel (65,205) and officers (5,369), while the Army and Marines 
added both enlisted personnel (94,401) and officers (23,108). Thus, the 
Navy and Air Force added more three- and four-stars even as they cut 
their forces. Meanwhile, the Army and Marines who presided over a 
growing force increased their three- and four-star billets at a much 
slower rate.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    There has also been a significant reduction in the number of 
weapons systems utilized by both the Navy and the Air Force. The Navy 
now has 32 fewer active ships and the Air Force operates 576 fewer 
aircraft than they did in 2001.\24\ If the Navy continues to add 
admirals as it has throughout the conflicts in Iraq and Afghanistan and 
reduce the total number of ships in its fleet it will, in the very near 
future, have more admirals than ships for them to command, as shown in 
Figure 7. By way of comparison, in 1986 during the Reagan Cold War 
buildup, there were more than two ships per admiral; when the Vietnam 
War ended in 1969 there were nearly three ships per admiral; and, when 
World War II ended there were approximately 130 ships per admiral.\25\
---------------------------------------------------------------------------
    \24\ All Navy ship figures are from U.S. Navy Active Ship Force 
Levels tables: ``U.S. Navy Active Ship Force Levels, 1886-present.'' 
Air Force plane data for 2001 come from Table E-1 of Department of the 
Air Force, U.S. Air Force Statistical Digest, fiscal year 2001, p. 91. 
http://permanent.access.gpo.gov/websites/dodandmilitaryejournals/
www.saffm.hq.af.mil/FMC/statdigest/2001/milonly/statdig01.pdf 
(Downloaded September 8, 2011); 2011 figure is from Department of 
Defense Appropriations Bill, Full Committee Report, pp. 8-10. http://
appropriations.house.gov/UploadedFiles/fiscal year--2012--DEFENSE--
FULL--COMMITTEE--REPORT.pdf (Downloaded September 8, 2011)
    \25\ These statistics are based upon calculations contained in 
POGO's 1982 report (as revised in 1987) on officer inflation: Officer 
Inflation: Its Cost to the Taxpayer and to Military Effectiveness.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Although not on pace with the Air Force and Navy, star creep within 
the Army and Marines is also apparent. The Army has decreased its 
number of one-star generals, while increasing its higher ranking 
generals. Specifically, the Army cut 13 brigadier generals between 
September 2001 and April 2011, but added 11 major generals, 11 
lieutenant generals, and 2 four-star generals. Thus, even within the 
general and flag officer ranks, it is the higher ranks that are being 
added while only brigadier generals are being cut. The Marines' story 
is very similar: five brigadier generals were cut during this time 
period, seven major generals were added, and four lieutenant generals 
were added. Since September 2001, three- and four-star officers in the 
Army and Marines have increased by 25 and 24 percent, respectively.

                   THE FINANCIAL COSTS OF STAR CREEP

    For taxpayers concerned with an ever-expanding DOD budget, star 
creep adds to DOD costs. This is due in large degree to the costs that 
that surround general and flag officers, such as staff, contractors, 
and travel, which tends to increase significantly with higher ranks. 
Raymond Dubois, former DOD Director of Administration and Management 
from 2002 to 2005, spoke with Air Force Times directly on this 
point.\26\ ``A four-star has an airplane. A three-star often doesn't . 
. . Can a three-star get an airplane when he needs it? Not always. Does 
a four-star get an airplane when he needs it? Always. Many times he'll 
already have a G5 sitting on the runway, gassed up. There are the kinds 
of costs that are fairly significant when you add them all up,'' 
according to Dubois.\27\ At his August 2010 speech on DOD efficiency 
initiatives, former Secretary of Defense Gates referred to these perks 
as ``the overhead and accoutrements that go with'' senior positions, be 
they military or civilian, within DOD.\28\ His thoughts on this were 
elaborated upon in an interview with Newsweek:
---------------------------------------------------------------------------
    \26\ Scott Fontaine, ``AF has military's highest GO-to-troops 
ratio,'' May 9, 2011. http://www.airforcetimes.com/news/2011/05/air-
force-general-officer-troop-ratio-050911w/ (Downloaded September 8, 
2011) (hereinafter ``AF has military's highest GO-to-troops ratio'')
    \27\ ``AF has military's highest GO-to-troops ratio''
    \28\ ``DOD News Briefing with Secretary Gates from the Pentagon''

          Gates grumbles about perks and posh quarters--generally 
        defended by senior officers as a reward for decades of 
        stressful family moves every couple of years--but those are not 
        his real targets. The defense secretary's deeper complaint is 
        about what he calls ``brass creep.'' Roughly translated, it 
        means having generals do what colonels are perfectly capable of 
        doing. Generals require huge staffs and command structures: 
        three-star generals serving four-stars, two-stars serving 
        three, each tended by squadrons of colonels and majors. This 
        sort of elaborate hierarchy may have been called for in 
        Napoleon's day, but in an era of instant communication, Gates 
        thinks the military could benefit from a much flatter, leaner 
        management structure.
          These entourages are symbolic of a military leadership that, 
        in the view of its civilian leader, is suffering from an 
        inflated sense of entitlement and a distorted sense of 
        priorities.\29\
---------------------------------------------------------------------------
    \29\ ``A War Within''

    The direct compensation cost of officers also increases with their 
rank. In just basic pay, when a colonel (Navy captain) with over 20 
years experience becomes a brigadier general (rear admiral--lower 
half), their pay jumps from $110,674 to $138,488, an increase of more 
than $27,000 per year.\30\ Costs increase further when other parts of 
an officer's compensation package are included, such as allowances for 
subsistence, housing, and tax benefits. A major general (rear admiral) 
with 30 years of service and a family of four receives a compensation 
package worth more than $206,000 annually, and if they are promoted to 
a three-star lieutenant general (vice admiral) their compensation 
package increases to over $225,000.\31\
---------------------------------------------------------------------------
    \30\ This is just monetary compensation and does not include 
housing, healthcare, or any other part of the compensation packages 
enjoyed by officers. All uniformed personnel salary figures taken from 
the DOD's Pay Tables: Department of Defense, Defense Finance and 
Accounting Service, ``Military Members,'' Updated July 27, 2011. http:/
/www.dfas.mil/dfas/militarymembers.html (Downloaded September 8, 2011)
    \31\ The ``Regular Military Compensation Calculator'' includes 
basic pay, basic allowance for subsistence, and the basic allowance for 
housing: Department of Defense, Office of the Secretary, ``Regular 
Military Compensation Calculator.'' http://militarypay.defense.gov/
mpcalcs/Calculators/RMC.aspx (Downloaded September 8, 2011) 
(hereinafter ``Regular Military Compensation Calculator'')
---------------------------------------------------------------------------
                          COMBATING STAR CREEP

    It is clear that star creep is costly to taxpayers. To overcome 
this problem, there are two basic options: elimination or replacement. 
As Gates demonstrated in his ``Track Four Efficiency Initiatives 
Decisions,'' \32\ issued in March 2011, unnecessary officer positions 
can be eliminated, and many other tasks that cannot be eliminated can 
be performed by lower-ranking officers or DOD civilians to reduce 
costs.
---------------------------------------------------------------------------
    \32\ Memorandum from Robert M. Gates, Secretary of Defense, to 
Secretaries of the Military Departments, et al., regarding Track Four 
Efficiency Initiatives Decisions, March 14, 2011. http://
www.acq.osd.mil/dpap/pdi/pc/docs/3-14-2011--Track--Four--Efficiency--
Initiatives--Decisions.pdf (Downloaded September 8, 2011) (hereinafter 
Track Four Efficiency Initiatives Decisions)
---------------------------------------------------------------------------
Eliminating General and Flag Officer Positions
    The most cost-effective, though not always viable, option for 
reducing the cost burden of star creep is to completely eliminate 
general or flag officer positions. This strategy was heavily 
incorporated into Gates' efficiency initiatives, which eliminated 102 
general and flag officers. Twenty-eight of the eliminations are from 
war-related positions, such as leadership posts in Afghanistan and at 
the Guantanamo Bay detention center. Unfortunately, the Gates memo does 
not fully eliminate all of these general and flag officer positions; it 
keeps them in a ``Service Buffer,'' which can be ``used for an 
encumbered position for a period not to exceed 2 years,'' and allows 
requests for even longer terms to be sent to the Under Secretary of 
Defense for Personnel and Readiness.\33\
---------------------------------------------------------------------------
    \33\ Track Four Efficiency Initiatives Decisions, p. 30.
---------------------------------------------------------------------------
    These cuts only take us a fraction of the way towards getting the 
top brass back to pre-September 11 levels. As of March 2011, when Gates 
issued the ``Efficiencies'' memo, the Pentagon had added five four-star 
billets since 2001,\34\ but the memo will only eliminate four of 
these.\35\ There were also 32 more three-stars in March 2011 than there 
were in 2001, yet Gates' plan will eliminate just eight of these after 
March.\36\ Overall, Gates' plan for efficiencies in 140 general and 
flag officer positions targeted three- and four-star billets just 24 
times, and only eliminated 21. Incidentally, this is only two more than 
the three- and four-star positions added under Gates' tenure.\37\
---------------------------------------------------------------------------
    \34\ 2001 data from Table 2-15: Department of Defense, Defense 
Manpower Data Center, Statistical Information Analysis Division, 
Selected Manpower Statistics, fiscal year 2005, Table 2-15. http://
siadapp.dmdc.osd.mil/personnel/M01/fy05/m01fy05.pdf (Downloaded 
September 8, 2011). March 2011 data from: Department of Defense, 
``Active Duty Military Personnel by Rank/Grade,'' March 31, 2011. 
http://siadapp.dmdc.osd.mil/personnel/MILITARY/rg1103.pdf (Downloaded 
September 8, 2011).
    \35\ The memo eliminates a total of 5 billets, but one had already 
been completed prior to issue of the memo and the personnel figures 
referred to here.
    \36\ The memo as a whole eliminated nearly twice this number of 
three-star billets, however, many of these had already been completed, 
and were thus already accounted for. Additionally, two three-star 
billets were added by reducing four-star billets to three-star billets.
    \37\ In January 2007, the first full month in which Gates was 
Secretary of Defense, there were 175 three- and four-star billets, and 
in April 2011, just prior to Gates' departure, there were 194. January, 
2007 data available here: Department of Defense, ``Active Duty Military 
Personnel by Rank/Grade,'' January 2007. http://siadapp.dmdc.osd.mil/
personnel/MILITARY/rg0701.pdf (Downloaded September 8, 2011) April, 
2011 data available here: Department of Defense, ``Active Duty Military 
Personnel by Rank/Grade,'' April 30, 2011. http://siadapp.dmdc.osd.mil/
personnel/MILITARY/rg1104.pdf (Downloaded September 8, 2011)
---------------------------------------------------------------------------
    While Gates' initiatives to eliminate unnecessary top brass are a 
first step in the battle to control star creep and keep personnel costs 
down, they may not go far enough. They retain a number of general and 
flag officer positions that might reasonably be eliminated or performed 
by lower-ranking officers or civilian personnel.
Replacing General and Flag Officers with Lower Ranks
    While some positions should be eliminated, elimination alone is not 
a panacea for the problem of star creep. Many general and flag officers 
perform essential tasks and thus someone needs to perform those tasks. 
In many instances, however, the tasks can be completed just as well by 
less expensive alternatives within the DOD force structure.
    As previously mentioned, officer costs increase with officer rank, 
so if the work of a higher-level officer can be done by personnel at a 
lower level, there can be cost savings. This, too, was a key part of 
Gates' memo from March 2011, where he identified dozens of general and 
flag officer positions whose grade should be reduced.\38\ For example, 
he proposed reducing three legal billets from brigadier general to 
colonel.\39\ While no savings figure for these specific cuts is 
provided, a rough estimate can be obtained using the Regular Military 
Compensation Calculator.\40\ Assuming 20 years of service and a family 
of four, the average annual compensation of a brigadier general is 
approximately $183,000 and the average annual compensation of a colonel 
is $153,000. Thus, decreasing just these three billets by a single rank 
would save taxpayers nearly $100,000 annually. Moreover, these three 
positions are just a fraction of the general and flag officers serving 
in legal positions. In all, nearly 20 general and flag officers perform 
legal tasks, typically as judge advocates.\41\
---------------------------------------------------------------------------
    \38\ Track Four Efficiency Initiatives Decisions
    \39\ Page 29 of the ``Track Four Efficiency Initiatives Decisions'' 
lists three Air Force Judge Advocate positions that are to be 
downgraded to the rank of Colonel, Additionally, it is noted that the 
Air Force did not agree to these changes.
    \40\ The ``Regular Military Compensation Calculator'' includes 
basic pay, basic allowance for subsistence, and the basic allowance for 
housing.
    \41\ The Flag and General Officers' Network, ``Flag/General 
Officers Public Directories/Selection/Promotion/Orders Lists.'' http://
www.flagandgeneralofficersnetwork.org/fgosp.html (Downloaded September 
8, 2011) (hereinafter ``Flag/General Officers Public Directories/
Selection/Promotion/Orders Lists'')
---------------------------------------------------------------------------
    As an All-Volunteer Force, the military needs to maximize the 
combat orientation of uniformed personnel. If a general or flag officer 
is performing primarily bureaucratic functions, a close review of the 
justification for the staffing of these functions is warranted, along 
with a rigorous examination of other staffing alternatives.
    A look down the official rosters of general and flag officers 
reveals a large number of positions that are not combat commands.\42\ 
For many of these functions, the importance of the activity is clear. 
What is not always clear is why the activities must be performed by a 
general or flag officer. Many general and flag officers work as 
lawyers, doctors, financial managers, comptrollers, legislative 
assistants/liaisons, public affairs directors, corporate directors, 
chiefs of staff, and as chaplains. Specifically, in the general or flag 
officer ranks there are: 8 chaplains, 18 lawyers, 4 public/legislative 
affairs personnel, and 46 medical personnel, including 2 dentists.
---------------------------------------------------------------------------
    \42\ All positions mentioned here are as of March 2011 (the same 
month Gates' issued the efficiency initiatives memo): ``Flag/General 
Officers Public Directories/Selection/Promotion/Orders Lists''
---------------------------------------------------------------------------
    For some of these positions, a general or flag officer serving in 
the role may be fully justifiable. Senior command leadership may be 
necessary to perform the functions of a DOD doctor or JAG attorney. But 
it is not clear that all these positions should be at the general or 
flag officer level. It is also not clear why there are variances across 
the service branches in these positions. For example, does the Navy 
need as much top brass in medical positions as all of the other 
Services combined? Does the Air Force need more chaplain generals than 
any of the other branches?

                          INITIAL CONCLUSIONS

    The U.S. military is more top-heavy than it has ever been. The 
average general or flag officer is commanding fewer personnel than they 
ever have and many are not commanding troops for battle--they are 
commanding legislative aides, dentists, lawyers, and chaplains. 
Moreover, the branches that bear the least burden in the War on 
Terror--the Navy and the Air Force--have added more general and flag 
officers than the Army and Marines, and they have done so while cutting 
lower-ranking officers and enlisted personnel.
    This star creep does not appear to be fully justified and it has 
increased personnel costs at the DOD. Gates' efficiency initiatives are 
a vital first step towards reducing top brass, but these cuts may not 
go far enough. There continue to be a number of positions that may not 
need to have general or flag officers filling them.

                      PRELIMINARY RECOMMENDATIONS

    While POGO believes we do not need as many general and flag 
officers as there are now, given the current size of our military, cuts 
should not be made arbitrarily. Many of our recommendations request 
further studies to determine what positions can be eliminated or 
downgraded. More fundamentally, we seek to better understand the root 
causes of brass creep, a desire we believe the subcommittee shares.

    1.  Secretary of Defense Leon Panetta should address the issue of 
star creep by first ensuring that Former Secretary Gates' efficiency 
initiatives are fully implemented, and by exploring elimination of the 
Service Buffer.
    2.  Panetta should begin another round of initiatives to identify 
additional reductions in the general and flag officer ranks. As part of 
this, Panetta should conduct a roles and missions review, which will 
help to identify structural components that are driving the demand for 
general and flag officers.
    3.  Congressional oversight into the process of joint duty general 
and flag officer appointments should strive to restrain the unnecessary 
growth of the number of general and flag officers.
    4.  The DOD's Director of Cost Assessment and Program Evaluation 
should be asked to investigate the impact of star creep, and brass 
creep more broadly, on DOD payroll expenditures and determine if it 
hinders military effectiveness, as Secretary Gates claimed.
    5.  The Government Accountability Office should be asked to 
investigate the root causes of brass creep overall and make further 
recommendations to eliminate or replace excessive general and flag 
officers.

    Senator Webb. Thank you, Dr. Freeman.
    Again, I would like to express my appreciation to all three 
of you for your testimony and to note again that your full 
written testimonies will be entered into the record, along with 
your oral statements.
    Let me begin by asking you, Dr. Stanley, I would assume 
that Secretary Panetta also supports this process that 
Secretary Gates put into play?
    Dr. Stanley. That is definitely a valid assumption, Senator 
Webb. We have embraced this. We have not talked about this 
specifically, but he is on board and has accepted the policies 
and the things put in place by his predecessor.
    Senator Webb. Thank you.
    Can you give us an overview--maybe, Admiral, you would also 
like to participate in this--in terms of just how the statutory 
ceilings work? You mentioned they were a key ingredient in your 
study. Do they give you overall DOD numbers from which at the 
OSD level you allocate, or do these numbers come up Service-by-
Service so that you are in an approval mode?
    Dr. Stanley. Senator Webb, if I understand your question 
correctly in terms of statutory ceilings, the number we were 
dealing with was 952 that was given to us as a statutory 
ceiling. We worked with that number and the Secretary told us 
in our narrow scope to work with this particular study by doing 
it within a very short period of time to reduce by 50 G/FOs. 
That was our focus on this particular time. This was not a 
study or anything to look at for--looking at long-term because 
we do not know what the emerging requirements----
    Senator Webb. I understand that. In fact, I am going to ask 
you another question about that in a minute. But just in terms 
of the process, Admiral, you may want to comment on this.
    Admiral Gortney. Yes, sir. One of the key assumptions that 
we made that we had the Secretary approve up front before we 
went down the study was what was the base number that we would 
work from, and that was the statutory limits that included the 
joint pool numbers.
    Then the second assumption was how did we want to 
adjudicate it. Did we want to ask for legislative lowering of 
the limits or would we want to manage it within the statutory 
limits that we have right now? He chose to leave the limits 
where it was and then use his authorities within the joint pool 
to control the numbers. He felt it was his responsibility to 
manage DOD with the authorities that he already had.
    Senator Webb. So essentially in terms of how this process 
works inside DOD, you have a statutory ceiling in terms of the 
number of flags that can be allocated among the Services. Is 
that correct?
    So then how was it determined which Service has a certain 
number of those flags, or you seem to have been doing it the 
other way around, just sort of like trimming rather than----
    Admiral Gortney. When it comes to the joint pool, each 
Service has a fair share for their numbers assigned to them 
within the joint pool, and we used that percentage through the 
study. But the legislated numbers, or the maximum of four 
stars/three stars for their Service positions, were the ones 
that we used.
    Senator Webb. Right. I understand, but you could have a 
totally different allocation among the Services if the 
Secretary of Defense, for instance, were to decide--is that a 
correct assumption--from this statutory ceiling.
    Admiral Gortney. It is my understanding that the Services 
each have their own statutory numbers, but I could be wrong.
    Senator Webb. We will get some follow-on input on that.
    [The information referred to follows:]

    Each Service has a statutory limit to the number of general/flag 
officers within their respective Service. The statutory limitations are 
determined in two parts, the actual overall number of general/flag 
officers and a limit to the number of a specific grade each Service is 
allowed to manage.

    Senator Webb. You indicated in the study--I will start, 
Secretary Stanley, with you again--that the objective in this 
case was not to determine how many G/FOs were required. What 
would have been your methodology if you actually were to 
determine how many were required?
    Dr. Stanley. Senator, I do not want to put a hypothetical 
in here. We were definitely focused on what the Secretary asked 
us to do. When we looked at the numbers required and where we 
are, we looked for efficiencies within the G/FO ranks. The 
conditions on the ground, not only the wars we are fighting, 
but engaging where we are right there, looking across the 
Services in DOD, actually got us to your question of what is 
required because at the end of the day, that is where we ended 
up in terms of our determination in getting to the actual 
numbers of what is required. So even though the Secretary said 
come up with 50, we identified more than that, actually 103, 
which gave us the answer to what was actually, we thought, 
required.
    Senator Webb. Admiral?
    Admiral Gortney. We were looking for the efficiencies, go 
after the growth that was out there and any efficiencies that 
we could eliminate or reduce or transfer to the Senior 
Executive Service (SES). We did not go after--which from your 
question, it would imply a roles and mission study.
    I think if you wanted to look at what is the true 
requirement, I think you would need to pick a point in time 
out, say, 2020-2025, and what are the roles and missions of 
each one of the Services and what are the roles and missions of 
the joint commands and joint staffs that happened to be out 
there. That might lead you to another set of numbers. We did 
not have the time in order to do that. That was not our tasking 
from the Secretary.
    Senator Webb. So here is what I am trying to get at. Where 
is it decided that each of these Services has the justification 
or the requirement for the flags that we see here? Where is it 
decided and how is it decided? We may get into this more in the 
second panel. How is it decided that the Air Force--I am not 
picking on the Air Force--with 332,000 people should have 151 
brigadier generals when the Navy with 328,000 should have 129 
and the Army with 569,000 people should have 144? Where is that 
decided?
    Admiral Gortney. A fair question, sir. I am not exactly 
sure where the decision. We have the statutes that we live by. 
The Services have mandated statutory limits. We have a joint 
pool and we manage them within those numbers.
    [The information referred to follows:]

    The overall decision of what each Service maintains in way of grade 
shape is formed based on statutory authority. Beyond that, the 
individual Services, working with manpower models which are weighed 
against mission requirements, have determined their independent grade 
shape. This action is not done in a vacuum and is routinely reviewed by 
the Service.

    Senator Webb. So you get overall statutory authority from 
Congress.
    Admiral Gortney. I believe so. I believe that is the 
answer.
    Senator Webb. From there, who is deciding? How do you 
compare a brigadier general in one Service to another? Who does 
that?
    Admiral Gortney. A fair question, sir.
    Senator Webb. That is why we have this hearing.
    Senator Graham.
    Senator Graham. To build on Senator Webb, this is a good 
hearing, and I was thinking, we will come in here--I have 
learned a lot.
    One, I think maybe we need to reconstitute this committee 
to answer that basic question. Somebody has to say 334 versus 
whatever number and have a reason for it.
    But the study group's charter was to find 50 reductions. 
Right? You came up with 103. But as I understand it from the 
Vice Admiral, you really did not look at roles and missions. So 
I am not so sure I agree with you, Secretary Stanley, that you 
went to what the force needs are because if you do not look at 
roles and missions 25 years down the road, I am not so sure 
that is an accurate statement. But the fact of the matter that 
you are looking at and we are trying to deal with star creep is 
a very good thing.
    I have a unique perspective here being a judge advocate. 
What I want to try to inform the subcommittee of, and 
particularly Senator Webb, is that this idea of having a top-
heavy force, too many general officers, is something we should 
be concerned about. I totally agree with that.
    But the SES is a designation. It is a high-paid civilian. 
Right? Does the SES make about the same as a brigadier, or do 
you know, Dr. Freeman?
    Dr. Freeman. I am sorry. I do not have that answer.
    Senator Graham. I think they do.
    Now, here is what the Air Force does, and I do not mean to 
be overly defensive here. But the Air Force has 10 SES legal 
support people. They are civilians beyond GS-15 or whatever the 
top grade is. The Army has 22, 100 percent more. The Navy has 
16, about 40 percent more. The Air Force, the Navy, and the 
Army can tell us why you have more high-paid civilians in one 
Service than the other, and maybe they can tell us why you have 
more generals versus less SES.
    But the one thing I would say in my little area of the 
world is that a two-star JAG position did not serve us well 
during Abu Ghraib and Guantanamo Bay discussions. There is a 
real tension that this goes beyond party politics between the 
Office of the General Counsel who serves the Secretary of 
Defense and each Service Chief--they are civilians--and the 
military uniformed lawyer loyalty-wise to the commander.
    We had a very bad problem in the Bush administration that 
the Obama administration, quite frankly, has corrected. The 
civilian lawyers in the Bush administration in my view shut out 
military legal advice and tried to make a power grab saying 
that the JAG had to clear their legal advice to their 
commanders through the civilian Office of General Counsel. That 
to me was an exercise of control of legal independence. Our 
commanders need their lawyer.
    The Surgeon General was a three-star. The Corps of 
Engineers professional was a three-star, and we learned during 
the course of these hearings, Senator Webb, at the two-star 
rank you got shut out of meetings. You were either sitting on 
the wall or not in the meeting rather than at the table. 
Congress decided to elevate the JAGs so they would be in the 
room.
    We, in this committee--and I am very proud of this--have 
reinforced the idea that the military legal community owes 
allegiance to their military commander. We all believe in 
civilian control of the military, but what we do not want is 
some political appointee being able to shape legal advice to 
someone whose career is on the line. So that is a tension 
between responsibilities, political accountability, and rank 
does matter.
    But I think what Senator Webb is trying to do here is very 
helpful.
    Now, on the Air Force side, we have four brigadier generals 
that service the major commands. Like Air Combat Command, they 
drop bombs. My belief is that having that brigadier general on 
the Air Combat commander's staff is probably a very good thing 
when it comes to rules of engagement interpretations in a 
kinetic war.
    But I am very open-minded about how we can deal with star 
creep. The one thing I would just suggest to Senator Webb is 
that we need to look at the SES utilization in terms of cost 
and why one Service would go heavy on the generals side and 
light on the civilian side and listen to their rationale. There 
may be a good reason why you would have 10 Air Force SES 
lawyers and 4 brigadier generals. The Army has 22 SES attorneys 
and I think 3 brigadier generals. I would just like to hear 
from their point of view why they make those decisions. Maybe 
we could expand, if Senator Webb would entertain this, looking 
at the SES levels, because that is, I would probably guess, at 
least the equivalent of brigadier general in terms of 
compensation, and see why each Service goes the way they do.
    But yes, it is a good question. How could somebody have 334 
in the Air Force? Who makes that decision? You apparently have 
a statutory ceiling, and beyond that, you leave it to each 
Service to make the decisions about how many general officers, 
and I would like to know more about that.
    So, thank you.
    [The information referred to follows:]

    The total number of general officer positions within each military 
Service is determined by law. The 2009 National Defense Authorization 
Act (NDAA) authorized 208 general officer billets in the U.S. Air 
Force. Of the 208 authorized general officers in Air Force service 
positions, 6 are currently allocated to be Judge Advocate General (JAG) 
billets.
    The six JAG general officer positions are: the Air Force Judge 
Advocate General (TJAG), the Deputy Judge Advocate General (DJAG), the 
commander of the Air Force Legal Operations Agency (AFLOA), the Staff 
Judge Advocate at Air Combat Command (ACC/SJA), the Staff Judge 
Advocate at Air Mobility Command (AMC/SJA), and the Staff Judge 
Advocate at Air Force Materiel Command (AFMC/SJA). There are also three 
members of the Senior Executive Service (SES) serving in the Air Force 
JAG Corps. Two of these SESs support the AFMC/SJA and the other serves 
under the TJAG on the Air Staff.
    The Air Force differs from the other Services in that it places O-7 
SJAs in key positions at three Major Commands (MAJCOM). The reason 
behind this is that the Air Force sees great value in having senior JAG 
expertise in the field where it can better support the mission of the 
warfighter.
    Specifically, the Air Force has general officer JAGs at ACC, AMC, 
and AFMC. The ACC/SJA advises the ACC Commander (the lead agent for the 
combat air forces) and the supported combat commanders. The ACC/SJA 
provides counsel on issues requiring general officer oversight of the 
numerous legal matters including the employment of airpower against 
time sensitive targets and issues with rules of engagement. At AFMC, 
the SJA provides legal oversight to the MAJCOM responsible for one-
third of the Air Force's annual budget--a total obligation authority of 
over $42 billion in the fiscal year 2012 budget. The AFMC enterprise 
includes the Air Logistics Centers, Test Centers, Product Centers, and 
the Air Force Research Laboratory--all of which have major impacts for 
both the Air Force and Department of Defense at large. The AMC/SJA 
provides legal advice that is critical to development of national 
industrial mobilization base for airlift and aerial refueling. The 
Commander of AMC maintains a fleet of 479 Active Duty tanker and 
transport aircraft and manages 1,255 aircraft from the Air National 
Guard and Air Force Reserve. In addition, the command plans, 
coordinates, and manages the Civil Reserve Air Fleet with civilian 
partners. The vast responsibilities and strategic importance of each of 
these three MAJCOMs require that the commanders are supported by the 
most experienced members of the JAG Corps.

    Senator Graham. What I would like to do is actually get the 
group to go back and look at roles and missions in terms of the 
general officer force we would need and look at the SES and see 
how that has been growing or not growing.
    So that is it. Thank you.
    Senator Webb. I thank Senator Graham for those comments.
    Let me be clear about a couple of things. I totally agree 
with you. I think that this is an area that we are just 
beginning to get a look at, and there is a Guard and Reserve 
component in here that has not been examined. Dr. Freeman 
mentioned that in his testimony, and I am not one to be sitting 
here saying that the Air Force is the Army or the Marine Corps. 
Each Service has its own characteristics, and we are looking 
forward to hearing----
    Senator Graham. Being an Air Force officer, I think the Air 
Force has some explaining to do.
    Senator Webb. Senator Ayotte, welcome.
    Senator Ayotte. I guess I better say I am married to a 
Guard and Reserve lieutenant colonel.
    I very much appreciate the study that you undertook, 
Secretary Stanley, and just want to follow up on a couple of 
things.
    Number one, the fact that we did not look at roles and 
missions. I think that is very important in terms of this 
analysis so that we get this right because we need in my view 
to look at our grand strategic environment when we make the 
decision on what is appropriate in terms of flag grade officers 
or, of course, everything that we do in the military in terms 
of readiness.
    If you look at where we are post-September 11, we have 
stood up Strategic Command in October 2002; Africa Command, 
2007; CYBERCOM, 2010. So I fully agree that we need to look at 
this issue of star creep and grade inflation and unwanted 
growth overall of the Pentagon bureaucracy, but I think also 
with creating new needs in our strategic environment, if we do 
not look at roles and missions, we could make some poor 
decisions in terms of leadership.
    So, as Tom Donnelly of the American Enterprise Institute 
has said, given the threats we face and the wars we are in, it 
is not surprising that the headquarters require experienced, 
strategically savvy, and politically sensitive commanders. We 
are fighting a very different conflict in terms of what we are 
dealing with.
    To what degree did the joint requirements and the creation 
of the commands I just described and the wars in Iraq and 
Afghanistan--did we look at that in terms of the growth in the 
number of flag officers since September 11?
    Admiral Gortney. Absolutely, ma'am. As we plotted over time 
from 2001 to today doing the study, it was clear that is where 
the majority of the growth was, and we have identified those 
positions to go away. We applied the conditions that those 
positions will go away. So as long as we are in the fight, they 
will remain. When they are done, they will fall off.
    Additional billets were actually billets that we thought we 
would identify for elimination, but we transferred them over to 
CYBERCOM because we were standing up CYBERCOM and we needed to 
take some of those positions. So we did identify positions for 
elimination but took those positions and applied them over 
there.
    Senator Ayotte. Some of this reduction is going to occur 
naturally based on end strength reductions that are coming as 
well.
    Admiral Gortney. That is the next step, is where are we 
headed into the future, and then we have to continue to study 
what needs to go down as the force reduces coming out of Iraq 
and Afghanistan. Executability of the study was very important 
to us. How are we going to implement it and the Services asked 
for 5 years and that is what the Secretary approved, 5 years to 
implement the changes. That allows them--because the Services 
control the input and they control the output of their flag and 
general officers. On an average, 11 or 12 percent can come in, 
and on an average, 11 or 12 percent go out for the last 5 
years. It is mandated by law, by age, or time in grade that 
they must retire. It allows the Services over 5 years to 
control that input so that it is less than the output.
    Senator Ayotte. But if we have not looked at roles and 
missions, how do we know we are going to get this right?
    Admiral Gortney. Once again, our goal was to find the 
efficiencies, go after the growth and find the efficiencies 
that were out there for elimination, reduction, or transfer to 
the SES. I think one of the reasons we were able to execute our 
plan as quickly as we did was because we bounded it to that. It 
is a fairly subjective argument. We were trying to apply 
objective measures to it as best we could, frame the problem in 
that regard, and that is why were able to come up with the 
reductions that we did.
    Senator Ayotte. What are the plans with regard to the SES? 
What percentage growth have we seen in that service since 
September 11? What type of analysis are we going to undergo 
with regard to the SES in terms of making sure that this has 
not occurred within DOD rather than just focusing on the flag 
officers?
    Dr. Stanley. The Secretary actually took that into 
consideration, again not roles and missions. But what he did do 
was as the G/FO group was meeting, we also had the SES 
efficiency group meeting. Again, everything was actually 
focused just on efficiencies, not roles and missions, and quite 
frankly, they tiered it looking at the technical, looking at 
the leadership, and looking at the SES, as well as highly 
qualified experts, and looked at all of those and looked from 
an efficiency standpoint what are they doing now, which ones 
are the ``nice to have''--it was pretty subjective in that 
part--and then identifying those, what they called the ``easy 
takes.'' They literally identified over 176. We were asked to 
come up with 150. He gave us a goal. We came up with 176 and 
actually took a number of those. Some of those billets or those 
positions had not been filled. Some we knew were going away. 
Some, the mission had actually changed.
    I happened to have sat on both of them as a co-chair in 
both, as we were talking about the G/FO piece, I could see 
where we were going with the SESs. But again, not roles and 
missions. Very bounded in efficiencies. That was it, knowing 
that we had other studies to do later on.
    Senator Ayotte. So if you sat on both, can you help me? 
What is the percentage growth among--if you look at the 
percentage growth post-September 11 among flag officers versus 
SES over that same period, can you give us some kind of sense 
of how you compare the two?
    Dr. Stanley. This particular study that we did, we were not 
looking at the percentage growth in terms of where we were. 
What we literally were just given here is a number. We know we 
have grown, and we knew that going into it. We were looking at 
some easy efficiencies where we were. The Secretary was 
anticipating this year in terms of having too many people, a 
lot of growth, how do we address this, how do you deal with the 
OCO from the G/FO piece in terms of those who are actually 
committed now, and letting the conditions on the ground drive 
that, as well as SES. But it was a very, very quick look at 
what we were doing in the same period of time. They both ended 
up at the same time.
    Senator Ayotte. I guess I am trying to understand are we 
looking at that side of it too, and is it there is a greater 
percentage of growth there versus what is happening on the----
    Dr. Freeman. If I may, Senator.
    Senator Ayotte. Yes.
    Dr. Freeman. Since September 11, we have added over 100,000 
DOD civilians total. I do not have the figures for the SES'ers, 
but their growth rate does rival the growth rate of G/FOs 
overall. Very comparable growth rates there.
    Senator Ayotte. So in your view, we need to undertake a 
similar stringent analysis on that end?
    Dr. Freeman. That is absolutely correct. POGO personally--
that is where we are headed next and we certainly hope the 
committee and the DOD looks at that issue as well.
    Senator Ayotte. I appreciate that and particularly want to 
make sure that we are not just--and I do not mean to use a term 
the wrong way--picking on the military side and not doing a 
similar stringent review on the civilian side.
    Dr. Stanley. Could I just make one comment?
    Senator Ayotte. Yes.
    Dr. Stanley. What we do know is that from the intelligence 
side, there was a significant increase, and even when we 
started this part of our study, we did not touch all of those. 
There were things that happened in the intelligence side that 
we needed since September 11 and it was not just a matter of 
percentages as much as we were not going to touch those.
    Senator Ayotte. I am very glad to hear that, of course, 
because I could appreciate why that would enhance.
    May I ask one more brief question?
    Senator Webb. I would remind the Senator we are on a 7-
minute rule, but go ahead.
    Senator Ayotte. Just on the JAG officer issue, we have 
heard a lot of testimony before this committee, particularly in 
the Navy JAG program, with concerns about the program. I would 
just, as a comment, echo on Senator Graham's comments to say 
given the importance of the JAG program, I hope that that is 
taken into account when you are looking at leadership and 
making sure that we have the right type of leadership to stress 
the importance of that program.
    Senator Webb. Thank you, Senator.
    Could staff put up slide 2?
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. Just as a clarification, to reemphasize where 
we were at the beginning of this hearing, there was a 
discussion on growth in the joint commands. One of the 
questions that we have on this hearing is the number of G/FOs 
inside what we call the institutional Services. One of the 
things that was brought to the attention at the beginning of 
the hearing is the number of Air Force four-star generals who 
are in what is called the institutional Service and also Navy, 
by the way, compared to their overall strength. We have nine 
general officers in the Air Force in institutional positions, 
meaning inside the Air Force, as compared to the numbers that 
you see: two in the Marine Corps; five in the Army; and six in 
the Navy.
    Was this issue addressed during your study, Dr. Stanley?
    Dr. Stanley. It was but in a very limited scope. What we 
did, Senator, was actually--first of all, as we looked at the 
different Services and where they were, we were more focused in 
terms of not only what was happening within the headquarters 
but combatant commands (COCOM) headquarters and what the----
    Senator Webb. So this is something that you would be 
continuing to examine as we put the--
    Dr. Stanley. Absolutely.
    Senator Webb. I would think because, quite frankly, I do 
not think there is anybody in DOD who, if given a choice 
between being a four-star and being an SES, would pick being an 
SES.
    Thank you very much for your testimony. We will now hear 
from the second panel.
    We now welcome the second panel: General Peter Chiarelli, 
Vice Chief of Staff of the Army; Admiral Mark Ferguson III, 
Vice Chief of Naval Operations; General Dunford, Assistant 
Commandant of the Marine Corps; and General Breedlove, Vice 
Chief of Staff of the Air Force.
    I would like to proceed again reminding the witnesses if 
you could summarize your testimony within 5 minutes. Your full 
written statement is a part of the record. Then we will have a 
7-minute round of questions afterwards.
    General Chiarelli, welcome.

STATEMENT OF GEN PETER W. CHIARELLI, USA, VICE CHIEF OF STAFF, 
                           U.S. ARMY

    General Chiarelli. Chairman Webb, Ranking Member Graham, 
distinguished members of the subcommittee, I thank you for the 
opportunity to appear before you today to discuss the issue of 
general officer requirements in the U.S. Army. On behalf of 
Secretary McHugh, our new Chief, General Ray Odierno, and the 
more than 1.1 million men and women serving on Active Duty and 
in the U.S. Army Reserves and Army National Guard, Army 
civilians and their families, I want to thank you for your 
continued and strong support over the past decade. It is 
largely through your efforts that we have had the resources and 
manpower required to sustain us in the current fight while 
simultaneously preparing and training soldiers for the next 
fight.
    We are all aware of the challenges posed by the current 
fiscal crisis, and I can assure you your Army remains committed 
to instilling a culture of cost savings and accountability. 
This includes force structure and manpower authorization 
specific to our general officer corps.
    For 13 years, from 1995 to 2008, our authorized general 
officer Active Duty end strength remained unchanged at 302. 
Over the past 4 years, per directives issued by Congress and by 
senior leaders of DOD, the Army incrementally increased our 
general officer end strength to meet the requirements for 
senior leadership in Iraq and Afghanistan and also to assure 
our ability to meet internal Army and joint requirements. These 
additional authorizations have proven absolutely critical to 
ensuring our force is able and capable of meeting the demands 
of the current environment both at home and in theater.
    Looking ahead, as we draw down operations in Iraq and 
eventually in Afghanistan, we recognize the Military Services 
will be required to make reductions to end strength to include 
within our flag and general officer ranks. I assure the members 
of the subcommittee the Army's senior leaders are prepared to 
do our part. By 2014, as a result of the Secretary of Defense's 
efficiencies review and reductions in our joint pool minimum, 
we will reduce our internal general officer authorizations by 
11 and our joint contribution from 102 to a minimum of 82, for 
a projected total general officer end strength of 301, one 
below the end strength in place from 1995 to 2008. We believe 
this projected end strength will be sufficient to meet our need 
for senior leadership both internal to the Army and across DOD.
    That said, any further reductions or acceleration of 
planned reductions would jeopardize our ability to effectively 
meet those requirements. Bottom line, as we look at making 
reductions for force structure in coming days, we must ensure 
we remain a flexible force with a general officer population 
capable of leading institutional change while concurrently 
providing needed skills to our combatant commanders.
    Mr. Chairman and members of the subcommittee, I thank you 
again for your continued and generous support and demonstrated 
commitment on behalf of the outstanding men and women of the 
United States Army and their families.
    I look forward to your questions.
    [The prepared statement of General Chiarelli follows:]

           Prepared Statement by GEN Peter W. Chiarelli, USA

                              INTRODUCTION

    Chairman Webb, Ranking Member Graham, and distinguished members of 
the subcommittee, on behalf of our Secretary, the Honorable John 
McHugh; our Chief of Staff, General Raymond Odierno; and the over 1.1 
million soldiers who serve in our Active component, Army National 
Guard, and U.S. Army Reserves, as well as our Army civilians and family 
members, I thank you for this opportunity to appear before you to 
discuss the U.S. Army's general officer requirements.
    First, I want to thank this subcommittee for its steadfast support 
and demonstrated commitment to our men and women in uniform. I 
appreciate the genuine concern the subcommittee and its members 
demonstrate for our soldiers, Army civilians, family members, and the 
overall personnel readiness of our force. It is largely through your 
support that we have the resources and manpower required to sustain us 
in the current fight, while simultaneously preparing and training 
soldiers for the next fight. We are deeply grateful and appreciative of 
your continued, strong support.
    You called us here today to discuss the current flag and general 
officer requirements of our respective Services in the context of 
increasingly constrained budgets and changes to force structure. Let me 
assure you upfront, your Army remains committed to instilling a culture 
of savings and accountability; and this includes force structure and 
manpower authorizations specific to our General Officer Corps. The Army 
promotes officers to its authorized general officer end strength in 
accordance with law and the Office of the Secretary of Defense policy. 
We do this in a very deliberate manner. Each year, our Army's senior 
leaders commit time to reviewing and validating each internal Army 
general officer position. While our validated requirements exceed our 
title 10 general officer authorizations, we are able to provide the 
requisite leadership by assigning our colonels selected for brigadier 
general and pending promotion to these positions.
    For 13 years, from 1995 until 2008, the Active Army's authorized 
general officer strength remained unchanged at 302. In 2008, Secretary 
Geren appointed the ``Special Commission on Army Acquisition and 
Program Management in Expeditionary Operations'' to review contracting 
linked to the war effort. Dr. Jacques Gansler, former Under Secretary 
of Defense for Acquisition, Technology and Logistics, headed the six-
member commission. As a result of the commission's findings, the Army's 
general officer authorization increased by five in 2008 to ensure 
needed senior leader expertise in contracting. In 2009, the advent of 
the ``Joint Pool'' established a limit of 230 internal Army billets and 
required the Army to fill a minimum of 85 billets, bringing the Army's 
general officer end strength to 315. In 2010, the Army's fair share of 
Joint requirements increased from 85 to 102 to provide the Services the 
ability to support temporary general officer requirements associated 
with or in support of Iraq and Afghanistan. Most recently, the 
Secretary of Defense conducted a general and flag officer efficiencies 
study group which, by policy, will require the Army to reduce its 
internal general officer authorizations by 11 and its joint 
contribution will change from a fair share of 102 to a minimum of 82, 
by 2014.
    Once all planned general officer reductions are implemented, we 
believe we will have sufficient general officer authorizations to meet 
our projected need for senior leadership both internal to the Army and 
across the Department of Defense. At the same time, any further 
reductions or acceleration of planned reductions would reduce the 
Army's flexibility in meeting general officer requirements across the 
Department of Defense.
    As you well know, America's Army has been operating at a tremendous 
pace for over 10 years. As a result of combat operations in Iraq and 
Afghanistan, the Army's general officer authorizations increased to 
provide the most capable and decisive land force in the world. With the 
recent end of combat operations in Iraq, and as a result of the 
Secretary of Defense's efficiency review, the Army will see a 
noticeable reduction in the number of general officers between now and 
2014.

                           PRIMARY CHALLENGES

    As we look at making reductions to our force structure in coming 
days, to include reductions in the number of general officer 
authorizations, we must ensure that we remain a flexible force, with a 
general officer population capable of leading institutional change 
while concurrently providing needed skills to our combatant commands.
    Our primary challenge is managing the elimination of eleven Army 
general officer authorizations set forth in the Secretary of Defense 
Efficiency review, bringing the Army's internal general officer 
authorizations from 230 to 219. This is coupled with the concurrent 
requirement to draw down the number of general officers currently 
serving in Joint requirements, largely in temporary positions 
supporting contingency operations in Iraq and Afghanistan.
    For the past 4 years, the Army has incrementally increased the 
General Officer Corps to meet the requirements for senior leadership in 
Iraq and Afghanistan and assure our ability to meet internal Army and 
joint requirements. Between now and fiscal year 2014 the Army will 
incrementally decrease the general officer end strength. In an 
environment where we must meet the directives established by the 
Secretary of Defense's efficiencies study and simultaneously reduce the 
number of general officers serving in Iraq, the Army will need to 
increase the number of general officer retirements per year in order to 
prevent delays in promoting officers on promotion lists. The increased 
retirements must be managed in such a fashion so as to assure continued 
development of a diverse and talented group of general officers to 
serve in the most senior leadership positions across the Department of 
Defense.

                             DOING OUR PART

    In order to maintain the appropriate force structure, and achieve 
our goal to provide a tailorable and scalable force capable of meeting 
our national security requirements, the Army's senior Leaders recognize 
we must do our part. To date, the Army has eliminated three internal 
Army general officer requirements and has downgraded the Commanding 
General, U.S. Army Europe from O-10 to O-9. The Army will eliminate 
eight additional internal Army general officer requirements as directed 
by the Secretary of Defense. In addition, the Army leadership continues 
to identify cost saving measures and efficiencies throughout the force.

                                CLOSING

    These continue to be challenging times for our Nation and for our 
military. That said, I assure the members of this subcommittee--your 
Army's senior leaders remain focused and committed to effectively 
addressing current challenges, while also determining the needs of the 
Force for the future.
    Mr. Chairman, members of the subcommittee, I thank you again for 
your steadfast and generous support of the outstanding men and women of 
the U.S. Army, Army civilians, and their families. I look forward to 
your questions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. Thank you very much, General Chiarelli.
    Admiral Ferguson, welcome.

STATEMENT OF ADM MARK E. FERGUSON III, USN, VICE CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Ferguson. Chairman Webb, Ranking Member Graham, and 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss the Navy's flag officer end strength as 
part of DOD's efficiencies study and efforts.
    From September 11, 2001, until today, the additional 
demands for flag officers have resulted in additional growth of 
flag positions for the United States Navy. This growth has 
occurred primarily in additional joint billets supporting 
ongoing operations and meeting new mission areas in areas such 
as cyber, explosive ordnance disposal, special operations, and 
intelligence.
    Contrasting what we have experienced in the joint arena, 
Navy in-service flag numbers over the past decade have 
essentially remained flat at approximately 160 officers. Our 
in-service flags serve as both operational commanders of naval 
forces dispersed around the globe and on their operating staffs 
or are associated with the Title 10 responsibilities to man, 
train, and equip the force.
    Within our current authorized end strength, we believe we 
have the flexibility both to seek greater efficiencies as well 
as more effective staff alignments, as well as respond to 
emerging operational demands.
    This Navy flag end strength also supports the United States 
Marine Corps in the form of senior health care executives and 
flag officers, chaplain corps officers, JAG corps, and 
acquisition professionals that provide support for the entire 
Department of the Navy.
    Our participation in the Secretary of Defense's flag 
officer review resulted in changes to approximately 25 
positions for the Navy. This review eliminated 11 Navy flag 
officer positions resulting in a projected end strength of 
approximately 149 flag officers assigned to the Service when 
the efficiencies measures are completed. An additional 14 flags 
were reduced as part of our joint contribution, leaving a total 
of 60 in the referred to joint pool. In addition, we downgraded 
50 officers. Flag positions were converted then to SES.
    We fully support these reductions and believe that we are 
appropriately sized for our current tasking. We have begun 
planning for the reductions and execution and we use 
adjustments in both promotion opportunity for flags, as well as 
retirements, to meet these new end strength targets.
    In the future, we remain absolutely committed to create a 
more agile, flexible, and effective flag officer staff 
structure for the Navy to deliver the finest naval forces that 
we can to the Nation.
    On behalf of the Secretary and the Chief of the Naval 
Operations Center, thank you for the support of the committee, 
and we look forward to answering your questions.
    [The prepared statement of Admiral Ferguson follows:]

          Prepared Statement by ADM Mark E. Ferguson III, USN

                           EXECUTIVE SUMMARY

    In the decade since September 11, 2001, Navy has experienced growth 
in flag officer positions, primarily due to an increased number of flag 
officers provided to the joint force in the execution of ongoing combat 
operations and in support of new mission areas. In 2001 the Navy has an 
authorized level of 161 in service and 59 joint positions.
    The Navy is unique in that it provides flag officer leaders in 
support of the U.S. Marine Corps, such as Senior Health Care 
Executives, Chaplain Corps officers, Judge Advocate General Corps 
officers, and Acquisition Professionals.
    The Department of Defense efficiency review recommended the 
elimination of 11 in-service flag positions and 14 joint positions 
allocated to Navy. Following the full implementation of these changes, 
Navy will have an active duty billet structure of 149 in-service flag 
positions, 60 joint positions, and 4 exempt flag positions as 
authorized by law. The review also authorized a total of 48 Reserve 
flag officers with 3 filling designated joint positions.
    Navy supports these efficiency actions and anticipates additional 
review to reduce or merge flag officer positions. Navy is taking a 
phased approach to lowering flag inventory through the reduction of 
promotion opportunities and retirements.
                                 ______
                                 
    Chairman Webb, Ranking Member Graham, and distinguished members of 
the committee, thank you the opportunity to testify regarding the 
Navy's flag officer end strength as a part of the Department of 
Defense's efficiency efforts.
    Navy has been fully supportive of the effort to identify savings 
that can be reallocated for investments in high priority warfighting 
capabilities and programs to prepare and equip our sailors for current 
and future challenges. While the budgetary savings from the review of 
flag officer end strength is modest when compared to other implemented 
changes, we believe the actions were necessary and set us on a path of 
having a flatter and more agile staff structure.

                               BACKGROUND

    Prior to September 11, 2001, the Navy had 220 flag officers--161 
in-service and 59 joint positions--with an end strength of 377,810 
sailors. This is a total ratio of 1 flag officer to every 1,717 
sailors. If only flag officers assigned to in-service Navy billets 
(non-joint flag) are compared against the Navy end strength, then the 
ratio is 1 flag officer to every 2,347 sailors.
    While we do not include USMC end strength in this calculation, Navy 
continues to provide flag officer staff support for the U.S. Marine 
Corps as Senior Health Care Executives, Chaplain Corps officers, Judge 
Advocate General Corps officers, and Acquisition Professionals. This 
provides a more efficient means to deliver support to both the Navy and 
Marine Corps.
    For example, the close coordination between our two services allows 
the Department of the Navy (DoN), to operate a single Systems Command 
for procurement of aircraft and support equipment. Led by a Navy flag 
officer, the Naval Air Systems Command (NAVAIR) is the Aircraft 
Controlling Custodian for all DoN test aircraft regardless of service. 
Each of NAVAIR's five affiliated Program Executive Offices (PEOs) are 
led by flag officers.
    Similarly, Naval Sea Systems Command is responsible for not only 
the procurement and in-service maintenance planning for all Navy ships, 
but is also accountable for the Landing Craft Air Cushion (LCAC) 
Service Life Extension Program, the development and procurement of the 
LCAC replacement and the Ship-to-Shore Connector.
    Lastly, the PEOs for Enterprise Information Systems and PEO C\4\I 
are both responsible for Navy and USMC systems that enable information 
dominance and the command and control of maritime forces.
    Since September 11, 2001 the Department of Defense has added two 
new combatant commands and additional Joint Task Forces to meet 
emerging operational missions. As required, Navy has provided flag 
officers to fill these leadership positions for the Joint Force. In 
addition to flag positions allocated to the service at U.S. Africa 
Command and U.S. Northern Command, Navy flag officers have served in 
Joint Task Forces to include: Commander, Joint Task Force Guantanamo; 
Commander, Joint Task Force Horn of Africa; Chief, Office of Defense 
Representative-Pakistan; Director, Communications and Strategic 
Effects-Afghanistan; and Chief Medical Advisor, International Security 
Assistance Force, Afghanistan.
    During this time the Navy has also undergone additional mission 
growth. The SEAL and Explosive Ordinance Disposal communities have 
risen in importance, with an increase in those communities' 
representation in joint assignments. Similarly, to keep pace with the 
rapidly growing prominence of information (dominance), the Navy created 
flag officer positions in the Intelligence, Information Warfare, 
Information Professional community.
    To reflect these changes in the joint force, the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010 directed changes to 
general and flag officer end strength. This legislation capped the Navy 
at 160 flag officers, but increased our ``fair share'' contribution to 
the ``Joint Pool'' from 60 in 2001 to 74 in 2010. At present, the Navy 
is filling 78 joint billets. The changes specified in the 2010 NDAA 
codified joint flag officer increases while keeping the Navy ``in-
service'' numbers flat at 160.

                               EXEMPTIONS

    As authorized by law, Navy is permitted exemptions to flag officer 
end strength that count neither against the 160 in-service nor the 74, 
``Joint Pool'' billets. Currently, the Navy has 18 exemptions. Four are 
filled by active duty officers and 14 by mobilized reservists. Of these 
exempt positions, eight are in-service billets, seven are ``Joint 
Pool'' and three billets are designated for the Chairman of the Joint 
Chiefs. The four active duty exemptions are the Superintendant of the 
Naval Academy, the Director of the Nurse Corps, the Director of the 
Medical Service Corps and the Attending Physician to Congress. Eleven 
of these 18 exemptions were provided for by Congress in the NDAA for 
Fiscal Year 2010, Public Law 111-84, which amended sections 525 and 526 
of U.S.C. Title 10.

                           EFFICIENCY REVIEW

    In the summer of 2010, Navy participated in the Secretary of 
Defense flag officer efficiency review. Navy entered the general and 
flag officer manning efficiency review having experienced essentially 
zero growth in the in-service flag end strength, with contributions to 
joint billets as the principal driver of flag officer growth. Our 
review resulted in the recommended elimination or reduction of 25 flag 
officers. This action eliminated 11 in-service flag officer positions, 
resulting in an effective end-strength of 149 in-service. An additional 
14 flag officers were reduced from joint billets, reducing our future 
contribution to a total of 60. This represents a reversal of the 2010 
NDAA directed growth. Following the full implementation of the 
recommended position eliminations, and using a targeted end strength of 
approximately 328,000 sailors by 2017, Navy will have a total ratio of 
1 flag officer to every 1,571 sailors and a non-joint, in-service ratio 
of 1 flag officer to every 2,201 sailors.

                             IMPLEMENTATION

    The Navy has begun implementing these changes in a phased approach. 
In doing so, we have focused on two tasks; alignment of the billet 
structure and the adjustment of flag officer inventory. Beginning in 
fiscal year 2012, our billet structure will begin to reflect the 
elimination or reduction of the paygrade required for identified 
positions, for example: from O-8 to O-7 or from O-7 to SES or O-6. At 
this point, we intend to make the position modifications as incumbents 
are relieved, and should be complete by fiscal year 2013.
    As this change will occur less than 2 years after the authorized 
end strength increase, we are planning for a near equivalent reduction 
through adjustments in promotions and retirements. Under current 
policy, flag officers may serve for up to 5 years after initial 
selection and promotion. To meet the required reduction goals, near-
term O-7 and O-8 selection opportunities will be reduced. We anticipate 
that we will meet the required reductions within the 5 year period, and 
believe a measured approach will minimize disruption and allow an 
effective transition to lower manning levels.

                              NAVY RESERVE

    Finally, U.S. Navy Reserve officers play an important role in our 
overall flag manning. In 2001, Reserve flag officer end strength was 48 
flag officers, with 4 filling designated Chairman's Reserve positions 
and counted within the Active component. At that time, the Navy Reserve 
held 87,913 sailors with a ratio of 1 flag officer to 1,690 sailors.
    The Navy ``fair share'' allocation of joint duty positions, 
authorized in the 2010 NDAA, also provided the authority for Reserve 
Force components to participate in the Joint Pool assignment processes 
to fill critical roles in excess of the Chairman's Reserve positions. 
As seen with the Active component over this time period, the Reserve 
component flag end-strength also experienced zero in-service growth. 
Upon full implementation of the efficiencies initiatives in 2017, the 
Navy Reserve will have 48 flag officers with 3 filling designated joint 
or Chairman's Reserve positions. The planned end strength of 61,254 
sailors will result in a ratio of 1 flag officer to every 1,201 
sailors.

                               CONCLUSION

    We remain committed to creating a more efficient and economical 
staff structure. We anticipate we will continue to reduce or merge flag 
officer positions. We look forward to working with Congress to create a 
more efficient and agile force structure.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Webb. Thank you very much, Admiral.
    General Dunford, welcome.

   STATEMENT OF GEN. JOSEPH F. DUNFORD, JR., USMC, ASSISTANT 
                 COMMANDANT, U.S. MARINE CORPS

    General Dunford. Chairman Webb, Ranking Member Graham, 
distinguished members of the subcommittee, I appreciate the 
opportunity to address the impact of the efficiencies 
initiatives affecting general officer and SES authorizations 
within the Marine Corps.
    Currently the Marine Corps' authorized Active Duty end 
strength is 202,100. Of those, 87 are general officers.
    Title 10 limits the number of general officers on Active 
Duty internal to the Marine Corps at 60. The Staff Judge 
Advocate to the Commandant of the Marine Corps is exempt from 
internal Active Duty general officer limitations. Counting the 
Staff Judge Advocate, there are 61 generals supporting internal 
Marine Corps requirements. General officers currently comprise 
.04 percent of the Active component of the Marine Corps. Our 
internal ratio of Active Duty general officers is 1 for every 
3,300 Active Duty marines.
    General officers serving in joint assignments, as 
authorized by the Secretary of Defense, are not counted against 
the internal general officer numbers. Our current fair share to 
the joint pool is 26, and that number is expected to be reduced 
to 21 by 2015.
    Our overall ratio of Active general officers is currently 1 
for every 2,300 Active Duty marines when you count that joint 
authorization. That ratio will change to 1 to 2,500 when our 
joint requirement is reduced.
    The current mix of Marine Corps general officers represents 
the proper balance to support Marine Corps operating forces and 
supporting element demands across the globe, and we are 
satisfied with our joint representation.
    Civilian senior executives perform an invaluable role to 
the Marine Corps total force team. They provide crucial 
leadership to ensure continuity in vision and policy in the 
midst of Active Duty general officer rotations.
    The Marine Corps currently has 22 SES billets and 2 Senior 
Leader billets. The efficiencies review resulted in the 
elimination of one Marine Corps SES position. The incumbent 
vacated this position in August 2011 and the position was 
eliminated. We also believe we have the right mix of senior 
executives to support our requirements.
    Thank you for the opportunity to be here. I look forward to 
your questions.
    [The prepared statement of General Dunford follows:]

        Prepared Statement by Gen. Joseph F. Dunford, Jr., USMC

                              INTRODUCTION

    Chairman Webb, Senator Graham, and distinguished members of this 
subcommittee, I am honored to appear here today. I want to thank you 
for your continued support to our sailors, marines, their families, and 
our civilian marines, and I appreciate the opportunity to address 
General and Flag Officer (G/FO) and Senior Executive Service (SES) 
authorizations.
    On August 16, 2010, then Secretary of Defense Robert Gates directed 
a series of initiatives designed to reduce duplication, overhead, and 
excess, and instill a culture of savings and cost accountability across 
the Department. The Marine Corps supported the Secretary of Defense 
mission to identify areas in which the Department could create 
efficiencies.
    In a memorandum dated March 14,2011, Secretary Gates directed 
immediate implementation of certain identified efficiencies. Among the 
efficiencies were the elimination, reallocation, reduction, or 
legislative change to 140 G/FO positions. The efficiencies effectively 
validated current Marine Corps general officer (GO) requirements by 
recommending no change to Marine Corps GO levels.
    In addition to the G/FO positions, Secretary Gates identified 
efficiencies within the Civilian Senior Executive (CSE) roles, 
eliminating 176 CSE positions and 33 highly qualified experts. The 
review resulted in the elimination of one Marine Corps SES position, 
the Business Enterprise Director, Installation and Logistics. The 
incumbent vacated this position on August 7,2011, and the position was 
then eliminated. The Marine Corps currently has 22 SES billets and 2 
Senior Leader billets.

                            GENERAL OFFICERS

    Title 10 limits the number of GOs on active duty internal to the 
Marine Corps at 60. It also generally prescribes the following maximum 
limits: 2 officers in the grade of general, 13 officers in the grade of 
lieutenant general and 22 officers in the grade of major general. The 
Staff Judge Advocate to the Commandant of the Marine Corps is exempt 
from internal active duty GO limitations. As well, GOs serving in joint 
duty assignments as authorized by the Secretary of Defense are not 
counted against the internal GO numbers.
    Currently, the Marine Corps authorized active duty end strength is 
202,100. Of those, 87 are GOs. The breakdown of the 87 GOs includes 61 
assignments to internal Marine Corps billets (including the Staff Judge 
Advocate to the Commandant of the Marine Corps) and 26 joint billets. 
General Officers presently comprise .04 percent of the Active component 
of the Marine Corps--approximately 1 Active Duty general officer for 
every 2,300 Active Duty marines.
    Table 1 describes overall actual GO levels within the Active and 
Reserve components within the Marine Corps. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Table 2 describes the Marine Corps' actual distribution of general 
officers. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    The current mix of Marine Corps GOs represents the proper balance 
to support Marine Operating Forces and supporting element demands 
across the globe. The Marine Corps has a history of frugality 
throughout the Corps--GOs are no exception. The last increase in Marine 
Corps GOs (from 80 to 81) was authorized by the National Defense 
Authorization Act for Fiscal Year 2009. This coincided with the overall 
end strength increase to 202,100. Similarly, as we begin to rebalance 
the Marine Corps for the future, we ask for the committee's support in 
retaining the proper number of GOs.
    Our current fair share to the Joint Pool is 26; and that number is 
expected to be reduced to 21 by 2015. The Marine Corps seeks to place 
GOs into joint billets that leverage the individual officer's personal 
experience or expertise, providing the greatest utility to the force 
overall. This challenging task requires close management and 
coordination within the headquarters, as our joint requirement is a 
relatively high proportion of our total GO structure. As our fair share 
comes down we expect this task to become less onerous.

                           SENIOR EXECUTIVES

    CSE perform an invaluable role to the Marine Corps Total Force 
team. They provide crucial leadership to ensure continuity in vision 
and policy in the midst of Active Duty general officer rotations.
    The Marine Corps currently has 22 SES billets and 2 Senior Leader 
billets. The leadership roles filled by these positions include 
Assistant Deputy Commandants (ADC) within Headquarters, Marine Corps, 
subordinate senior leadership to the ADCs, and senior civilian 
leadership at major commands such as Marine Corps Systems Command, 
Marine Corps Logistics Command and Marine Forces Reserve.
    When Secretary Gates identified efficiencies within the CSE roles--
totaling more than 200 positions across DOD--the review resulted in the 
elimination of 1 Marine Corps SES position: the Business Enterprise 
Director, Installation and Logistics. The incumbent vacated this 
position on August 7, 2011, and the position was then eliminated.

                        POSTURING FOR THE FUTURE

    In the fall of 2010, the Marine Corps conducted an overarching 
organizational review to evaluate and refine the organization, posture 
and capabilities required of America's Expeditionary Force in Readiness 
in a post-Operation Enduring Freedom-Afghanistan security environment. 
We understood in conducting this review that the future is going to be 
further challenged by fiscal constraints. Of necessity, our future 
force structure represents many judiciously considered factors and 
makes pragmatic tradeoffs in capabilities and capacities to achieve a 
posture that creates opportunity and enables flexibility and rapid 
response to crisis.
    Our intent is to rebalance the Corps for the future by 
reconstituting an active force of approximately 186,800 marines with 
39,600 in the Selected Marine Corps Reserve. The ratio of GOs to other 
marines will then increase from 1:2,300 to approximately 1:2,150. As we 
prepare to restructure the force for the post-OEF security environment, 
we expect the current GO balance to meet the needs of this future force 
structure. We ask for the committee's support as we move forward with 
these changes.

                               CONCLUSION

    Based on our analysis through the Force Structure Review, the 
Marine Corps has planned for a force with the right capabilities and 
capacities to provide the Nation with the world's most capable 
expeditionary force in readiness. With your continued support, the 
Marine Corps will remain a force that is ready to respond to today's 
crises with today's forces, today. Thank you for the opportunity to be 
here today; I look forward to answering your questions.

    Senator Webb. Thank you very much, General Dunford.
    General Breedlove, welcome.

  STATEMENT OF GEN. PHILIP M. BREEDLOVE, USAF, VICE CHIEF OF 
                     STAFF, U.S. AIR FORCE

    General Breedlove. Chairman Webb, Ranking Member Graham, 
Senator, thank you for this opportunity to speak to this 
important subject today, and thank you for your continued 
support.
    The United States continues to need a strong and agile 
military to confront a dynamic international security 
environment composed of a diverse range of threats. With our 
joint partners, the Air Force defends and advances the 
interests of the United States by providing unique capabilities 
across the full spectrum of conflict in order to succeed in 
today's wars and in future conflicts. I thank you and this 
committee for your strong and continued support of our Air 
Force as it does this mission.
    A key element of the Air Force's continued ability to 
provide combat power to the joint team is the depth and breadth 
of its senior leadership team. Our senior leadership consists 
of two different but mutually supportive elements: Air Force 
general officers and SES civilians. We rely on our general 
officers for their years of command experience and military 
judgment. Our SES civilians bring broad area expertise, as well 
as stability and continuity not achievable under the current 
military promotion system.
    Due to their comparable level of job complexity, scope of 
responsibility, span of control, inherent authority, and 
influence on joint and national security matters, the Air Force 
advocates a deliberate and balanced approach to flag-level 
leadership as we believe that general officers and SESs should 
be viewed as partners as we move forward.
    According to the 2009 National Defense Authorization Act, 
the Air Force is authorized 300 general officer billets with 
208 of those being Service positions and 92 being in the joint 
service. Of the total SES authorizations allocated to DOD, the 
Air Force has been apportioned 197 SES billets.
    In response to Secretary Gates' efficiencies study earlier 
this year, the Air Force has targeted 39 general officer 
positions and nine SES positions for elimination. When these 
reductions are complete in 2014, the Air Force senior 
leadership will consist of 261 general officers and 188 SESs, a 
level lower than that of the Air Force senior leadership team 
on September 11, 2001, and the lowest level of Air Force 
general officers ever. When normalized to its end strength, the 
Air Force senior leadership size is in line with the Service 
requirement and those of our sister Services. Ultimately, we 
believe that we have the correct mix of military officers and 
civilian executives to provide the Air Force with the best 
leadership team.
    As America's source for air and space power, the Air Force 
remains a reliable partner in the joint team. Along with our 
sister Services, we have reevaluated our senior leadership team 
and have taken targeted reductions in order to reduce overhead. 
Our team of general officers and senior executive civilians 
provides the Air Force with an extensive breadth and depth of 
expertise to provide America global vigilance, reach, and 
power.
    I look forward to your questions, sir.
    [The prepared statement of General Breedlove follows:]

          Prepared Statement by Gen. Philip M. Breedlove, USAF

    The United States continues to need a strong and agile military to 
confront a dynamic international security environment composed of a 
diverse range of threats. With our joint partners, the Air Force 
defends and advances the interests of the United States by providing 
unique capabilities across the full spectrum of conflict in order to 
succeed in today's wars and prevent future conflicts. The Air Force 
remains a mission-oriented and highly prepared force--not an easy task 
after more than 20 years of constant combat operations.
    A key element of the Air Force's continued ability to provide 
combat power to the Joint team is the depth and breadth of its senior 
leadership team. This team is responsible for not only organizing, 
training, and equipping the current force, but must also envision and 
develop a future Air Force that continues to provide air, space, and 
cyber power for America. Our senior leadership consists of two 
different, but mutually supportive, elements: Air Force general 
officers (GO) and Senior Executive Service (SES) civilians. We rely on 
our general officers for their years of command experience and military 
judgment. Our SES civilians bring broad area expertise as well as a 
stability and continuity not achievable under the current military 
promotion system.
    In order to develop a Total Force and achieve mission success, we 
must ensure that there is a level of interchangeability between our 
senior military and civilian leaders. Due to their comparable level of 
job complexity, scope of responsibility, span of control, inherent 
authority, and influence on joint and national security matters, the 
Air Force advocates a deliberate and balanced approach to flag-level 
leadership, and we believe that GOs and SESs should be viewed as equal 
partners as we move forward in this process. Accordingly, Air Force 
senior management structure merges these two groups into a unified 
team; to consider them separately does not give an accurate picture of 
our leadership corps.
    The 2009 National Defense Authorization Act authorized 300 general 
officer billets (208 Service, 92 Joint) for the Air Force. Of the total 
SES authorizations allocated to the Department of Defense (DOD) by the 
Office of Personnel Management, DOD has apportioned 197 SES \1\ (170 
Service, 27 joint) authorizations to the Air Force. For a detailed 
breakdown of Air Force senior leadership by rank, see Appendix 1.
---------------------------------------------------------------------------
    \1\ This number includes SESs only and does not include Senior 
Level (SL), Defense Intelligence Senior Level (DISL), or Scientific and 
Professional (ST) positions.
---------------------------------------------------------------------------
    Although current authorizations are slightly larger than they were 
a decade ago, they are small historically. In 1955, the Air Force was 
authorized 425 GOs, and by 1991, that number had shrunk to 326. Between 
1991 and 2001, Air Force GO authorizations were reduced by an 
additional 44. On September 11, 2001, the Air Force was authorized 282 
GOs and 171 SESs. Since that date, the Air Force has taken on new and 
expanded missions including the global war on terror; manning the newly 
established U.S. Cyber Command and U.S. Africa Command; and building 
partner capacity. As a result, the Air Force has slightly increased its 
Service and Joint GO authorizations (4 percent increase in Air Force 
billets, 12 percent increase in Joint billets). However, despite a 
substantial increase in missions as well as an increased Joint billet 
requirement, the Air Force has only added 18 new GO authorizations 
since 2001 (6 percent increase in total GO billets).
    Secretary Gates' efficiency study in March 2011 sought a review of 
DOD for opportunities to reduce duplication, overhead, and excess. In 
response, the three military Departments were tasked to identify 10 
percent of their total general or flag officers for reductions and to 
review the level of their SES workforce. As a result of this study, the 
Air Force has targeted 39 GO positions (22 Service, 17 Joint) and 9 SES 
positions for elimination. When these reductions are complete in 2014, 
the Air Force senior leadership will consist of 261 GOs and 188 SESs--a 
level lower than that of the Air 50 Force senior leadership team on 
September 11, 2001, and the lowest level of Air Force general officers 
ever. When normalized to its end strength, Air Force senior leadership 
size is in line with the other Services both before and after the 
efficiency study reductions. Ultimately, we believe that we have the 
correct mix of military officers and civilian executives to provide the 
Air Force with the best senior leadership team.
    As America's source for air and space power, the Air Force remains 
a reliable partner in the joint team. Along with our sister Services, 
we have re-evaluated our senior leadership team and have taken targeted 
reductions in order to reduce overhead. Our team of general officers 
and senior executive service civilians provide the Air Force with a 
breadth and depth of experience that is most effective when considered 
in concert. While this mix of these two groups varies between the 
Services, the ratio of Air Force senior leaders to airmen is broadly in 
line with the other Services. Together, our leadership team remains 
committed to the joint fight and remains ready to provide global 
vigilance, reach, and power for America.

                               Appendix 1

    This appendix includes the senior leadership levels of the Air 
Force in 2001, 2011, and the projected levels in 2014 as directed by 
the efficiency study. Over the past decade, the Joint GO positions 
considered exempted billets (those posts which are not counted under a 
Service's Title 10 GO end strength limit) have changed. In order to 
make the most accurate comparison, these exempted positions are not 
counted in the totals below. Finally, this data reflects total 
authorized positions since the actual number of senior leaders 
constantly fluctuates due to promotion, accession, and retirement.
2001 Senior Leadership
    In the fall of 2001, the Air Force was authorized 282 GO billets, 
of which 200 were Service GO billets and 82 were Joint GO billets. The 
breakdown of authorized GOs was 10 Generals, 34 Lieutenant Generals, 97 
Major Generals, and 141 Brigadier Generals. There were a total of 171 
Air Force SES members in the fall of 2001, of which 162 were Service 
SESs and 9 were Joint SESs. In sum, we were authorized 453 Air Force 
senior leaders on September 11, 2001.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. Thank you very much, General Breedlove.
    Again, I would like to thank all of you for your oral 
statements and repeat that your full written statements will be 
entered into the record along with your oral statements.
    Let me begin by asking General Breedlove and Admiral 
Ferguson both to discuss the number of four stars inside your 
institutional Services which are both higher than the Army and 
considerably higher than the Marine Corps. General Breedlove, 
maybe you can begin by just explaining how this process was 
examined and who makes the decisions.
    General Breedlove. Senator, thanks for the opportunity.
    Of course, in that 13-general-officer team, 1 is the Chief 
of the National Guard Bureau which will rotate out of the Air 
Force next summer and will rotate to a sister Service. We are 
about one-quarter of the Guard force strength. So we can expect 
that to rotate back to us in about four positions down the 
line.
    As far as the other nine general officers in our 
institutional force, which rightly was your concern as you 
began your discussion, our sister Services typically organize 
themselves along regional or functional lines, and I will allow 
them to talk to that.
    In the Air Force, we have aligned along both because of the 
responsiveness required to the combatant commanders and the 
responsibilities of those functional commands.
    Let me talk first to the regional commands, the Pacific Air 
Forces and U.S. Air Force Europe (USAFE). The scope and breadth 
of their requirements of the air forces that they deal with, 
all being led by very senior officers, led the combatant 
commander to advocate strongly that he needed a four-star 
airman in order to carry on airmen's business in his area of 
responsibility. Each of the major air forces in the Pacific 
region are typically led by four stars and for an Air Force 
airman to be at the table on behalf of the Commander of Pacific 
Command (PACOM), he would have to be a four star, and so there 
was strong advocacy.
    In that theater, there are multiple three-star joint force 
air component commanders who would lead the fight if we had one 
for Korea, who would lead the fight if we had one in the South 
China Sea, who would lead the fight, God forbid if we ever had 
another one, in or around Japan. So in order to lead those 
three-star joint force air component commanders that are part 
of the COCOM's force structure, he asked for four-star airmen 
to be there.
    In USAFE, it is much the same. The USAFE Commander wears 
four North Atlantic Treaty Organization (NATO) hats, all of 
them commanding NATO forces. As the Commander of Headquarters 
Allied Joint Force Command, Brunssum, the Theater Missile and 
Air Defense Commander, and also as you saw, responding in 
Libya. In the near future, as we build the phase-adaptive 
approach, which is the missile defense of Europe, you had heard 
Admiral Stavridis advocate that the United States needs to lead 
that effort because it will be primarily an Air Force force 
defending in that missile defense piece. So as the other allied 
nations in Europe are four stars, we are advocating for a four-
star U.S. commander to be able to do that.
    Across the functional commands, we have four-stars leading 
them.
    Air Education and Training Command, by itself is the fourth 
largest air force in the world.
    Air Force Materiel Command, a huge portfolio, including all 
of our depots, all of our nuclear business, all of our 
acquisition business, all of that is in the Air Force. We have 
sought a four-star to lead that business.
    Air Mobility Command, which moves all of the air freight 
all around the world, takes our soldiers to and from the 
battle, and responds to every combatant commander in our 
military, we have led with a four-star.
    Then finally, Air Force Space Command, which takes care of 
space for far more than just the U.S. Air Force, as you are 
aware, for all the other users of space in the U.S. Government, 
has been led by a four-star.
    Sir, the bottom line, we have looked at both a functional 
alignment and a regional alignment and the scope and breadth 
and depth of the requirements of those, and over time, the 
combatant commanders in each case have advocated through the 
various NDAAs that four stars lead those Services.
    Senator Webb. Where is it that the decision is made that 
these are four-star billets? Is it the Secretary of the Air 
Force, Secretary of Defense? I would assume the Secretary of 
Defense.
    General Breedlove. Sir, it is not the Secretary of the Air 
Force. I cannot tell you that it is the Secretary of Defense. I 
just do not know that answer. We need to get back to you on 
that.
    Senator Webb. All right. Thank you.
    [The information referred to follows:]

    The total number of general officer positions within each military 
Service is determined by law. The 2009 National Defense Authorization 
Act (NDAA) authorized 208 general officer billets in the U.S. Air 
Force. The 2009 NDAA also established limits for the number of officers 
in the grades of O-10s. Specifically for the Air Force, the 2009 NDAA 
authorized nine O-10s.
    Of the nine O-10 positions in the U.S. Air Force, title 10 of the 
U.S. Code specifies two: the positions of the Chief of Staff (CSAF) and 
that of the Vice Chief of Staff (VCSAF). The remaining seven O-10 
positions are allocated based on the discretion of the CSAF and the 
Secretary of the Air Force (SECAF). The Air Force allocates these seven 
O-10 general officer billets to be commanders of seven of the Air 
Force's nine Major Commands (MAJCOMs). The allocation of O-10 billets 
to these seven MAJCOM positions was done by assessing the span of 
control, the scope of resources managed, the level of accountability 
required, as well as the political-military interactions and the inter-
service coordination required for each of these senior leadership 
billets.
    The O-10 positions are subject to review and approval each time a 
new officer is nominated to fill one of these key leadership billets. 
The CSAF advises the SECAF as to which specific officer should fill a 
given O-10 position in the Air Force. The SECAF recommends the officer 
to the President of the United States (through the Chairman of the 
Joint Chiefs of Staff and the Secretary of Defense). The President then 
nominates the officer to the Senate and requests confirmation to a 
position of importance and responsibility authorized to carry the grade 
of general under the provisions of 10 U.S.C. section 601. The 
nomination is subject to review and scrutiny at each step in the 
process.

    Senator Webb. Admiral Ferguson?
    Admiral Ferguson. Chairman Webb, for the Navy alignments, 
obviously, two of the four stars are the Chief of Naval 
Operations and the Vice Chief. When you look at our other four-
star positions, they evolve historically either by the nature 
of our geographic dispersal in the fleets--so we have the 
Atlantic fleet, which is Norfolk, Commander of Fleet Forces 
Command, and then we have the Pacific fleet in Hawaii, which 
evolved historically and being geographically dispersed and 
working for the combatant commanders that direct operational 
forces in their major theaters.
    The other two four-stars, one was the Director of Naval 
Reactors who was dual-hatted with the Department of Energy, was 
created as a four-star by an act of Congress to oversee the 
safe operation of all nuclear propulsion plants. That has been 
a historical mission and specified term lengths and 
responsibilities by Congress and is dual-hatted.
    The other one is Commander of Naval Forces Europe who is 
also dual-hatted as a NATO four-star commander for the Southern 
Region. So that is an agreed upon flag specified by NATO and 
authorized by Congress. He is also, for example, involved in 
the Libya operations currently ongoing but commands NATO forces 
in the south.
    Senator Webb. Thank you.
    General Chiarelli, let me ask you one question before I run 
out of my time here. To what extent is the question that the 
gentleman from POGO raised about growth of general officers in 
the Guard and Reserve a portion of the Army situation here? In 
other words, how much have they grown in the Army Guard and 
Reserve and how does that interact with the numbers that you 
have here on the Active Duty side?
    General Chiarelli. I am going to have to get back to you on 
that because we did a review of Guard and Reserve component 
general officer positions last time and did not raise the 
number. They were looking for a redistribution of numbers.
    I can tell you right now we have on full-time support today 
81, and 36 of those have a nexus to Operation Enduring Freedom 
or Operation Iraqi Freedom. So they are on Active Duty today. 
Because if you look at the numbers, my numbers really are not 
569,000 if you take a look at how many folks we have mobilized 
today. We are upwards of 700,000 soldiers that are currently on 
Active Duty, and those numbers go up and down based on 
mobilizations.
    I might be able to help you on your answer at least from 
the Army's standpoint. The Army recently reduced a four-star. 
We went from six internal four stars. We are authorized seven. 
We have been authorized seven by law for the longest period of 
time. We only had six filled. We reduced our U.S. Army Europe 
(USAREUR) Commander to a three-star position, Lieutenant 
General Mark Hertling, who is currently in that position, and 
in doing that, we coordinated with the Secretary of Defense who 
gave us the authority to go ahead and reduce down to five of 
our seven internal, taking the USAREUR position and making it a 
three-star position.
    Senator Webb. So it would be your view that the Secretary 
of Defense has the authority under the legislative umbrella to 
declare that to be a four star?
    General Chiarelli. Not being a lawyer, I would not want to 
say that definitively, but I was part of that particular 
process and working it, and I know it was coordinated through 
the Secretary of Defense.
    Senator Webb. It is rather interesting that we do not 
really have an answer to that question today.
    To the other question, if I understand you right, you are 
saying that the Guard and Reserve situation does not really 
have an impact on your numbers of Active Duty general officers.
    General Chiarelli. No. We use Guard and Reserve officers in 
certain positions. We currently have a total of 81 that are on 
full-time support today, but that is basically being caused by 
deployments in Iraq and Afghanistan.
    Senator Webb. Yes, but you are saying that that number has 
not really changed.
    General Chiarelli. No. It goes up and down depending on the 
number of Reserve component soldiers we have mobilized and the 
requirements down range.
    Senator Webb. But in terms of Guard and Reserve numbers 
themselves?
    General Chiarelli. No. I am going to have to go back and 
check that, but I do not believe it has. They were looking for 
a redistribution here not too long ago, and we did a very 
extensive study of Guard and Reserve general officer positions.
    [The information referred to follows:]

    Current law, policy, and management practices do not result in 
growing Army Reserve general officer end strength. Aside from temporary 
growth authorized to meet current contingency operations, the Army 
Reserve general officer force has neither grown nor increased the 
Active Army general officer force. Current law, 10 U.S.C. section 
12004, and policy restrict the Army to 207 Army Reserve component 
general officers, of those officers the Army Reserve has been allocated 
115 general officers and the Army National Guard 92 general officers. 
The Army Reserve is also authorized one three-star as the Chief, Army 
Reserve by 10 U.S.C. section 3038. To meet the demands of current 
contingency operations, the Army Reserve experienced temporary growth 
in the Army Reserve general officer population. This temporary growth 
is authorized by 10 U.S.C. section 527 and rigorously controlled by the 
Chief of Staff, Army using the General Officer Management Office.
    The Army Reserve components have also experienced restricted, 
temporary growth to fill requirements in the Joint Pool and the 
Chairman's Reserve Program as authorized, and restricted, by 10 U.S.C. 
section 526. The restrictions within section 526 combined with the 
application of assignment tenures to one-star and two-star Reserve 
generals using 10 U.S.C. section 14314 prevents the cumulative growth 
to either the Army numbers in section 526 or the Army Reserve numbers 
in section 12004. Under current law, the Army may exempt up to 20 
percent of Reserve component general officer authorizations for those 
serving in joint duty assignments. This means that the Army National 
Guard can exempt up to 18 general officers and the Army Reserve can 
exempt 23 general officers.
    Upon the completion of Joint Pool or Chairman's Reserve Program 
tenured assignment the Reserve general officers are typically 
transferred to the Standby Reserve or to the Retired Reserve. If the 
officer is subsequently assigned to a non-joint traditional Reserve 
billet, the officer moves back to the rigorous management control 
procedures maintained in the Army general officer management office to 
comply with Reserve general officer end strengths as prescribed by 
section 12004. In each case the officer ceases to remain on Active 
Duty.
    The Army Reserve currently has 125 general officers, 34 of whom are 
performing Active Duty tours. The Army National Guard current has 117 
general officers, 35 of whom are performing Active Duty tours. As 
outlined previously, the general officers performing Active Duty tours 
are programmed to self-terminate from Active Duty orders upon 
completion of temporary tours authorized by section 526 and section 
527. These officers will transfer to the Standby Reserve, the retired 
Reserve or return to accounting within section 12004 as a Reserve 
officer. This management practice does not result in permanently 
growing Army general officer end strength.

    Senator Webb. Thank you very much.
    Senator Graham.
    Senator Graham. This has been fascinating. I am trying to 
figure out how you become a four-star general, not that that is 
going to happen to me anytime soon. But the whole idea of how 
you become a four-star general--I would assume the Secretary of 
the particular Service has to nominate you, right? Is that 
correct?
    Admiral Ferguson. That is correct, Senator, but it is a 
process where the Service Chief--the Service Secretary goes to 
the Chairman to the Secretary of Defense and then to the Senate 
for confirmation after the President endorses the nomination.
    Senator Graham. Okay. So this process--the Secretary of 
Defense has to sign off on it.
    Admiral Ferguson. Yes, that is correct.
    Senator Graham. Just like any other promotion from major to 
lieutenant colonel.
    General Chiarelli. Even in our internal positions, the 
Secretary of Defense signs off on it. Sometimes the Service 
will go ahead and nominate an individual to take even an 
internal position----
    Senator Webb. Let me add an observation as a former 
Secretary of the Navy. The decision to move forward with a 
nomination is the President's decision based on a Service 
Secretary recommendation to the Secretary of Defense and then 
to the White House. Really, the question I was trying to get at 
is who decides that this position is four stars and who decides 
that it is not?
    Senator Graham. That is what I am trying to say. How do you 
become a four-star general versus just a general officer. I 
guess the Service Secretary will say, yes, I need a four-star 
general at USAFE. I need a four-star admiral as Commander, 
PACOM. Right?
    General Chiarelli. By law, in the U.S. Army, the Vice and 
the Chief of Staff of the Army are four-star generals. U.S. 
Army Materiel Command (AMC) commander, U.S. Army Forces Command 
commander----
    Senator Graham. So you got statutory positions.
    General Chiarelli. Two out of our five that we currently 
have.
    Senator Graham. Okay. How many in the Air Force?
    General Breedlove. Two.
    Senator Graham. So Congress has created two. All right.
    So beyond those two, it seems to me that someone has to 
decide this command or this function or this region deserves a 
four-star commander. That comes from the Service Secretary to 
the Secretary of Defense. Is that right? Because that is 
Senator Webb's question. Do we know? If we do not know--the 
answer is okay to say we do not know. His question is a good 
question. How do you determine whether or not USAFE--you gave 
an explanation that makes sense to me. I just want to know how 
do you determine that is a four-star billet versus a three-star 
billet. You told us in the Army, U.S. Army Europe--you have 
gone from four to three. Somebody decided to do that. Who 
decided to do that?
    General Chiarelli. The Chief of Staff of the Army decided 
to make that recommendation to the Secretary of Defense based 
not only on ratios, because we think ratios lead you to some 
false comparisons----
    Senator Graham. Yes, and I am going to talk about that in a 
minute.
    So the point is if you give up a slot in that process, I 
assume that is how you add a slot. So if you wanted to go from 
a three- to a four-star in U.S. Army Europe, you would go 
through the same process.
    General Chiarelli. In the Army, we look at mission 
analysis, resource analysis, the number of not only military 
but civilians and Reserve component soldiers that are under 
that command. All those things go into an analysis. But we have 
three and we have had three forever other than the statutory 
ones. That is U.S. Army Forces Command commander, U.S. Army 
Training and Doctrine Command commander, and AMC commander.
    Senator Graham. I got you. I think I understand better now.
    Let us look at roles and missions for a lack of a better 
term. When we leave Iraq, we will have, I hope, some force left 
behind in 2012. I hope it is enough to do the job, but whether 
it is 3,000 or 10,000 or 15,000, it is going to be a lot 
smaller than 100,000. General, what kind of level of command 
would you want to lead that force? What rank do you think would 
be appropriate given that commander's job in Iraq and with the 
Iraqi Government?
    General Chiarelli. He will be supported by whoever the 
chief of the OSC is, as I understand it, which I understand is 
a three-star position.
    Senator Graham. What is OSC?
    General Chiarelli. Operation and Security Cooperation.
    Senator Graham. So that would be a three-star billet?
    General Chiarelli. That is my understanding.
    Senator Graham. Now, normally we would not have a three-
star general commanding 3,000 people.
    General Chiarelli. No, but there will be a commander for 
those individuals.
    Senator Graham. So I am saying that is a role or a mission 
that we believe from a national security point of view you have 
to have somebody with sufficient rank to deal with that 
position. That would be a three-star billet. Right?
    General Chiarelli. Which one is that, sir?
    Senator Graham. The OSC.
    General Chiarelli. Yes.
    Senator Graham. Now, under him, you will have an actual 
operational commander.
    General Chiarelli. Yes, you will.
    Senator Graham. What rank do you think that person will be?
    General Chiarelli. It depends on the number of folks.
    Senator Graham. Let us say it is 10,000.
    General Chiarelli. If the decision is made to leave a 
division headquarters there, they would leave a two-star 
general. If all that is left is a brigade headquarters and that 
is the decision of interaction with the Iraqis, it would be a 
colonel, I would imagine, unless special provisions were made.
    Senator Graham. Would that be a case where you would want 
special provisions to have a general officer?
    General Chiarelli. It would be one I would think that would 
be looked at because of the interaction with the Iraqi army.
    Senator Graham. Mr. Chairman, one special situation. The 
rule of law programs in Afghanistan were incredibly disjointed, 
interagency, all kinds of cats and dogs agencies, every 
alphabet soup agency spending on rule of law. The 
administration decided to create an ambassador for the rule of 
law, Ambassador Clem, and he has a one-star military deputy 
because the civilian-military partnership is the future of all 
conflicts. That is just a case where I think the general 
officer made sense in terms of roles and missions. I bet you we 
could find some situations where it is the other way too, that 
the general officer billet just really does not make sense in 
terms of what the mission is.
    I appreciate the thoroughness. I think we need to ask more 
questions. The Air Force has 10 SES billets for legal advisors. 
Now, the continuity--you are right. An SES person is just going 
to be there from administration to administration, from 
retirement to new people coming in. It gives you continuity. 
The brigadier general would have some operational experience 
where the uniform brings different aspects to the job.
    The Navy has 22. Do you know why the Navy has 22 SES 
personnel in their legal department and the Air Force would 
have 10? I do not mean to put you on the spot. I am just 
curious.
    Admiral Ferguson. Senator, I would have to defer to the 
general counsel to answer that.
    Senator Graham. Yes, but I think that the purpose of this 
hearing is to find out why we have picked one and not the other 
and why we are growing so fast. I just think some jobs require 
rank. Some jobs may just have been created for general officers 
just because that seems to be the trend.
    I know the Air Force pretty well. I think I understand 
their reasoning. The fact that they have 10 SES attorneys, the 
lowest of the group, probably explains the 1 or 2 additional 
brigadier generals. I do not know if that is the right model. 
It is just something to consider.
    From an Air Force point of view, how do you balance that? 
What are you looking at?
    General Breedlove. Senator, in preparing for this hearing, 
I have learned an awful lot about lawyers in the Air Force. I 
guess the thing that was most instructive to me----
    Senator Webb. You should have been here 2 months ago.
    General Breedlove. It might actually help my Navy 
compatriot answer his question. What I learned was that the 
three Services do law very, very differently. There are 
basically eight major functions that either JAGs or General 
Counsels (GC) do in all three of the Services. In one of the 
Services, the JAG Corps does three of those and the GC does 
five. In another Service, the JAG Corps does five of those and 
the GC does three. In my Service, the JAG Corps does eight of 
those and the GC does one. So that explains a little 
difference, the number and difference of general officers and 
SESs across the four Services because we do very different 
things with our lawyers within our own Service construct.
    Senator Graham. Mr. Chairman, I am willing to relook at 
that construct, if it makes sense.
    Senator Webb. Thank you very much, Senator Graham.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I appreciate the work that all of you do and thank you all 
for your service and your leadership.
    I wanted each of you to help me by telling me whether you 
are confident that we will not be increasing the legal risk 
that we are undertaking by cutting the JAG Corps field grade 
officers. I am really concerned that we have strong JAG Corps. 
So given this analysis and the efficiency initiatives that you 
are undertaking, where is this going to leave our JAG Corps 
overall in terms of leadership and importance?
    General Chiarelli. I believe the JAG Corps will probably 
assume a certain portion of the cuts as the Army gets smaller 
down to 520,000, but no more than any other branch would given 
a reduction in the number of forces we have and the size of its 
officer corps.
    Admiral Ferguson. Senator, I would say for the Navy and the 
program that we are submitting, we will be growing the JAG 
Corps in response to commissions that are taking place down at 
Guantanamo----
    Senator Ayotte. Glad to hear that.
    Admiral Ferguson.--and in response to the recent commission 
that we have. So you will see the number of officers grow over 
our program in a phased approach. I do not believe we have any 
leadership reductions planned at the senior levels presently.
    Senator Ayotte. Thank you.
    General Dunford. Senator, we did not grow the JAG Corps 
when we grew the Marine Corps, and we do not have any intention 
of reducing the JAG Corps as we draw down.
    General Breedlove. Senator, I cannot answer the broader JAG 
question. I can answer two things that we have been focusing 
on.
    First of all, we have come through a period in the Air 
Force where we focused on acquisition excellence and 
recapturing some integrity pieces in our acquisition business. 
So we are focusing law into the acquisition business.
    The other place we will not be shrinking is in what I would 
call our rule of war law. We are continuing to focus on giving 
not only our air commanders but our joint force commanders, who 
typically the Air Force serves under in these COCOMs, the right 
kind of advice as we apply lethal force.
    Senator Ayotte. Since we have all of you before this 
committee, this is not on the topic of this hearing but I 
really want to hear from all of you on it, and that is, we had 
the nominee for the Deputy Secretary of Defense, Ash Carter, 
before the Armed Services Committee yesterday.
    You represent the branches of our Armed Forces. You are 
undertaking an analysis to cut between $400 billion and $450 
billion over the next 10 years, and thereafter if, for some 
reason, Congress fails to undertake its responsibility with the 
Super Committee and further funds were sequestered as a result 
of the failure of the Super Committee to act, what is the 
impact on each of your forces?
    General Breedlove. Senator, I will jump in here first.
    As we look at what we now understand to be $450 billion or 
more across 10 years, it is going to affect our Service. In 
previous testimony, all four of us together have had the same 
concerns, and that is, as we were beginning to look at this 
process when the cut was in the range of $300 billion to $350 
billion, we thought that we could constrict our force, our Air 
Force, and continue to do all of the mission sets that we are 
currently asked to do, in other words, to drawn down capacity, 
but not change the complexion or character of the Air Force. 
Then that drawdown in capacity would manifest itself in 
increased risk in those missions that we are called to do, 
especially if we had to swing to a high-end conflict from the 
current counterinsurgency fight that we are focused on now.
    In previous testimony, I also said if we go past $350 
billion, that we would begin to have to look at not being able 
to just constrict capacity, but we might have to look at the 
character and what kind of missions we would provide America 
through her Air Force. I believe that we are to the point now 
where we are going to have to look at that. What are those 
missions that we may not be able to do that we have formerly 
provided? That will then bring risk again into the equation as 
we look at how we service our joint force commanders around the 
world. I think that we can meet the requirements, but the risk 
will be very much increased.
    General Dunford. Senator, Secretary Panetta has described 
any cuts beyond $450 billion as catastrophic, and I do not know 
what the specific impact would be on the Marine Corps. But the 
only place that we could go to cut--General Breedlove alluded 
to--in the Marine Corps' case is capacity. Seventy percent of 
the money that we spend is on people. So if we were caused to 
reduce the size of the force, it would be capacity. We would 
see the impact of that capacity reduction would be in our 
ability to meet the needs of the combatant commander on a day-
to-day basis, as well as crisis response and contingency 
response. But it is hard to scope that without knowing the 
exact cuts that would come the Marine Corps' way if the cuts 
exceeded the $450 billion that you referred to.
    Admiral Ferguson. Senator, I would echo what Secretary 
Panetta and the other Vice Chiefs have said. It begins to 
affect the ability of the Services to meet the national defense 
strategy. It implies increased response time to crises, 
conflicts, and disasters. It starts to affect the ability to be 
forward deployed and engaged around the globe, and it starts to 
introduce higher levels of risk in ongoing operations when you 
go to those larger levels of cuts that are discussed. It starts 
to affect the ability for force training and readiness and 
force generation capacity, and a sequestration would affect 
cuts in programs and start to affect the industrial base. That 
is of concern to us for the generation of our future capacity.
    So, our priority is to sustain the best Navy in the world 
and deliver for the Nation on that, and so the specifics of it 
we are still assessing based upon how events unfold.
    General Chiarelli. $400 billion is challenging, but it is 
workable, and that is what we are doing. I think I would only 
echo what Secretary Panetta said, that if we were to go into 
sequestration, it would hollow out the force, and that is our 
big worry. Our big worry is that whatever ramp you put us on, 
if it is down to 520,000, that it be a ramp that we can sustain 
the force and ensure that it is not hollowed out. After the 
Gulf War, we took 100,000 out in a year. What we ended up with 
was a very, very hollow force because when you take those kinds 
of numbers out so quickly, you basically take it out of whoever 
you can get to leave rather than ensuring you have the right 
numbers in the military occupational specialties to ensure that 
you have a balanced force. So for us, that is absolutely 
critical, given that we are a people-based organization.
    Senator Ayotte. Thank you.
    I firmly believe that we should not undermine our national 
security from our failure to make the tough decisions here and 
deal with the entire budget. So I appreciate your answering my 
question.
    Senator Webb. Thank you very much, Senator Ayotte.
    I thank all of you for your testimony today. It has been, I 
think, a very interesting hearing. As I have frequently said, 
this has been valuable not only to people who are here but to a 
number of staff people who will examine your testimony very 
carefully. We will probably have a continuing conversation on a 
number of these issues. Again, this has been very valuable to 
our committee. Thank you.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jim Webb

      CRITERIA FOR ESTABLISHING GENERAL AND FLAG OFFICER POSITIONS

    1. Senator Webb. Secretary Stanley, section 525 of title 10, 
U.S.C., establishes the maximum number of O-8s, O-9s, and O-10s each 
Service may have in their institutional force. Section 526 of title 10 
establishes the total maximum number of general and flag officers each 
may have in its institutional force, as well as a total maximum of 
general or flag officers available for the joint pool, which is then 
allocated to the Services by the Secretary of Defense. While each 
Service is required by law to have a Chief and Vice Chief of Staff (or 
Commandant and Assistant Commandant in the case of the Marine Corps) at 
the rank of O-10, other O-10 allocations are discretionary. How does 
the Department of Defense (DOD) determine which Service positions 
should be filled by O-10s?
    Secretary Stanley. The criteria used for determining which Service 
positions should be filled by O-10s are developed in the same manner as 
for all general or flag officer positions. Based upon a review of any 
statutory requirements, duties and responsibilities, and the mission of 
each individual position, each of the military departments will make a 
determination and recommendation to the Secretary of Defense that a 
specific position warrants designation as a position of importance and 
responsibility as an O-10 position.

    2. Senator Webb. Secretary Stanley, what are the criteria or 
standards used to make this determination, and what is the approval 
process?
    Secretary Stanley. The criteria used for determining which Service 
positions should be filled by O-10s are developed in the same manner as 
for all general or flag officer positions. Based upon a review of any 
statutory requirements, duties and responsibilities, and the mission of 
each individual position, each of the military departments will make a 
determination that a specific position warrants designation as a 
position of importance and responsibility as an O-10 position and will 
make that recommendation to the Secretary of Defense through the 
Chairman of the Joint Chiefs of Staff and the Under Secretary for 
Personnel and Readiness.
    Although not all-encompassing, below are some of the criteria and 
standards used when considering designation of any new general or flag 
position:
Nature of the position:
        <bullet> Characteristics of function: type of command, scope, 
        and level of function
        <bullet> Grade and position of: superior, principal 
        subordinates, and lateral points of coordination; a 
        consideration of the military or governmental structure within 
        which the manpower requirement function is performed
        <bullet> Supervision over position: proximity of supervision 
        and the degree of independence of operation
        <bullet> Official relations with U.S. and foreign governmental 
        officials and with the public: nature, extent, and level
        <bullet> Reflection of national emphasis and determination: 
        relationship of position to national objectives and programs, 
        special conditions under which the position was first 
        established or other reasons why position reflects national 
        will
        <bullet> Special qualifications required by the position
Magnitude of responsibilities:
        <bullet> Missions of organization and special requirements of 
        the position
        <bullet> Number, type, and value of resources managed and 
        employed
        <bullet> Military forces
        <bullet> Personnel
        <bullet> Value of equipment and properties
        <bullet> Total obligational authority and foreign resources
        <bullet> Geographic area of responsibilities
        <bullet> Authority to make decisions and commit resources
        <bullet> Auxiliary authorities and responsibilities inherent in 
        the position
        <bullet> Development of policy
        <bullet> National commitment to international agreements
Significance of actions and decisions:
        <bullet> Impact on national security of other national 
        interests
        <bullet> Importance to present and future effectiveness and 
        efficiency of the national defense establishment
        <bullet> Effect on the prestige of the Nation or the Armed 
        Forces

    3. Senator Webb. Secretary Stanley, please provide a comparison of 
the criteria and standards of each of the Services for determining 
which positions warrant a general or flag officer of a given rank and 
describe DOD's oversight process to avoid grade creep.
    Secretary Stanley. Each of the Services has different processes 
through which they determine which positions warrant a general or flag 
officer of a given rank, but each of the Services and the Department 
generally use the same criteria for validation of a position. They 
assess any statutory requirements; the nature of the position's duties 
and magnitude of its responsibilities; the span of control and scope of 
resources managed; and the significance of actions and decisions 
required by the position along with the importance of the position's 
mission accomplishment to national security and other national 
interests. These categories are broad in nature to provide latitude to 
the Service senior leadership when making these decisions. A 
description of each individual Service criteria and validation process 
is attached.
    Title 10, section 525, delineates the total number of authorized 
general and flag officer positions by both Service and individual 
grades. While the Services are granted leeway to manage their general 
and flag officer populations within legislative limits, the Department 
does closely monitor to ensure a Service does not grow beyond its legal 
limit.
Army:
    When making a recommendation to the Secretary of Defense on which 
positions should be filled by a general officer, the Army conducts a 
holistic review of the position and considers the statutory 
requirements (if they apply), the duties and responsibilities, and the 
mission. For operating force units, the Army uses doctrine to determine 
unit designs including the level of command. The allocation of 
operating force units between the Active and Reserve components, 
including general officer commands, is influenced by supported 
commander requirements and resource availability as recommended by the 
Total Army Analysis Process. The Army also conducts a manpower analysis 
to determine the number of military, civilian, and/or contractor 
personnel who fall under the position/command. As part of the process 
in determining and/or validating the need for a general officer 
position, the Army conducts an annual, internal-Army General Officer 
Requirements Review. Requirements are sent to Army Commands, Direct 
Reporting Units, Army Service Component Commands, and Army Staff 
Principals for validation and prioritization. During the review, 
commands/agencies may also make recommendations or requests to add, 
delete, change the grade and/or civilianize general officer positions. 
Commands/agencies may also make these recommendations/requests 
throughout the year, as requirements emerge or change. For new general 
officer positions, the command/agency must justify the position and 
identify an offset/billpayer. For a deletion, the command/agency must 
identify where/how the previously held responsibilities will be 
transferred, to include how the position should be filled (military or 
civilian) and at what level/rank. All general officer requirements are 
adjudicated at the four-star level. In every case, general officer 
requirements, and the fill of general officer positions, are predicated 
upon best enabling the Army to complete its missions and to take care 
of its soldiers, civilians, and their families.
Air Force:
    Based on statutory authorizations, the Air Force allocates general 
officer billets among the various leadership positions based on the 
responsibilities at the Air Staff, the Major Commands (MAJCOMs) and 
other functions. This allocation is done consistently by assessing the 
span of control, the scope of resources managed, the level of 
accountability, the political-military interactions, and the inter-
service coordination required for each of these senior leadership 
billets.
    The nine leadership positions in the U.S. Air Force filled by four-
star generals are: the Chief of Staff, the Vice Chief of Staff, the 
Commander of Air Combat Command (ACC), the Commander of Air Education 
and Training Command (AETC), the Commander of Air Force Materiel 
Command (AFMC), the Commander of Air Force Space Command (AFSPC), the 
Commander of Air Mobility Command (AMC), the Commander of Pacific Air 
Forces (PACAF), and the Commander of U.S. Air Forces in Europe (USAFE). 
The Chief of Staff and Vice Chief of Staff are commensurate with the 
top two leadership positions in each of the other Services. The seven 
other four-stars in the Air Force are MAJCOM commanders and they have 
responsibilities, spans of control, and political-military interactions 
that require the most senior grade of general officer.
    There are typically 36 Air Force senior leadership positions filled 
by three-star officers. One third of these positions are on the Air 
Staff and these billets include the Assistant Vice Chief of Staff, the 
various Deputy Chiefs of Staff (Manpower, Intelligence, Operations, 
Logistics, Information, Plans, and Programming), the Military Deputy 
for Acquisition, the Inspector General, the Judge Advocate General, and 
the Surgeon General. The other three-star positions are allocated to 
major Numbered Air Force (NAF) commanders, the vice commanders of the 
seven four-star MAJCOMs as well as the commanders of Air Force Special 
Operations Command and Air Force Global Strike Command. The Commander 
of Air University and the Superintendent of the U.S. Air Force Academy 
are also three-star positions.
    The two-star positions in the Air Force are typically used for the 
MAJCOM-level staff directorates, the commanders of smaller NAFs, the 
vice commanders for MAJCOMs commanded by 3-star officer, and combat 
task force commanders. In addition, the Director of Legislative 
Liaison, the Air Force Civil Engineer, and the deputies for key three-
star Deputy Chiefs of Staff on the Air Staff are two-star billets. The 
senior contracting officer and the senior budget officer of the Air 
Force are also general officers of two-star rank as are the Program 
Executive Officers (PEOs) for major acquisition efforts. Unique 
functions such as commanders for the Air Force Intelligence 
Surveillance and Reconnaissance Agency, the Air Force Operational Test 
and Evaluation Center, the Air Force Flight Test Center, and the Air 
Force Personnel Center are two-star billets as well.
    The remaining general officer authorizations in the Air Force are 
at the grade of one-star. Positions here include some wing command 
positions, the head of Air Force Security Forces, the director of the 
Air Force Office of Special Investigation, deputy directors on MAJCOM 
staffs, acquisition PEOs, vice commanders of major NAFs, and both the 
Commandant and Dean of Faculty (if a military officer) at U.S. Air 
Force Academy. Inspector Generals, Judge Advocate Generals, and Surgeon 
Generals at some MAJCOMs are one-star officers.
Navy:
    For Navy one- and two-star positions, the Secretary of the Navy is 
the approval authority for flag officer positions. These billets are 
designated based on the following criteria:

        <bullet> International agreements on rank structure, such as 
        within the North Atlantic Treaty Organization (NATO).
        <bullet> Nature of the Position. This includes characteristics 
        of billet function (e.g. command, general or coordinating 
        staff, et cetera), consideration of the military and 
        governmental structure within which the billet is assigned, 
        official relations with U.S. and foreign governmental 
        officials, and importance of the position to national security 
        objectives.
        <bullet> Scope of Responsibilities. This involves the missions 
        of the organization and any special requirements, the number, 
        type, and value of resources managed and employed, size of the 
        geographical area of responsibility, national commitment to 
        international agreements, and seniority of subordinate 
        commanders.
        <bullet> Importance of mission accomplishment to national 
        security and other national interests.

    For Navy three- and four-star positions, the Secretary of the Navy 
nominates flag officers to the President via the Secretary of Defense 
and Chairman of the Joint Chiefs of Staff. The positions have been 
previously vetted using, but not limited to, the aforementioned 
criteria. In addition, as provided for by title 10 U.S.C. section 601, 
with the advice and consent of the Senate, the President designates all 
three- and four-star billets as positions of importance and 
responsibility authorized to carry the grade of admiral or vice 
admiral.
    The Navy does not make recommendations regarding flag officer 
requirements to joint flag officer billets. It responds to requests for 
nominations from the Joint Staff, General/Flag Officer Matters Office.
Marine Corps:
    There are no defined, written, or objective criteria for making 
recommendations to the Secretary of Defense regarding general officer 
billets in the Marine Corps. Historical precedence and professional 
judgment drive the selection of general officer billets. This task 
falls upon the Commandant of the Marine Corps who approves every 
general officer requirement for the Marine Corps. Precedence informs 
professional judgment with regard to appropriate span of control and 
authority, degree of independence and autonomy from other suitable 
command authorities, roles and missions of the command, and the 
operational/strategic impact of the billet. The Marine Corps does not 
fill a position with a general officer solely on historical precedence, 
however, we do consider that factor an important consideration. The 
current mix of Marine Corps general officers represents the proper 
balance of postings to Marine Corps operating forces, supporting 
elements, and joint requirements.

    4. Senator Webb. General Chiarelli, Admiral Ferguson, General 
Dunford, and General Breedlove, what criteria do you use when making 
recommendations to the Secretary of Defense on which positions should 
be filled by a general or flag officer?
    General Chiarelli. When making a recommendation to the Secretary of 
Defense on which positions should be filled by a general officer, the 
Army conducts a holistic review of the position and considers the 
statutory requirements (if they apply), the duties and 
responsibilities, and the mission. For operating force units, the Army 
uses doctrine to determine unit designs including the level of command. 
The allocation of operating force units between the Active and Reserve 
components, including general officer commands, is influenced by 
supported commander requirements and resource availability as 
recommended by the Total Army Analysis Process.
    The Army also conducts a manpower analysis to determine the number 
of military, civilian, and/or contractor personnel who fall under the 
position and command. As part of the process in determining and 
validating the need for a general officer position, the Army conducts 
an annual, internal Army General Officer Requirements Review. 
Requirements are sent to Army Commands, Direct Reporting Units, Army 
Service Component Commands, and Army Staff Principals for validation 
and prioritization. During the review, commands or agencies may also 
make recommendations or requests to add, delete, change the grade, or 
civilianize general officer positions. Commands or agencies may also 
make recommendations throughout the year, as requirements emerge or 
change. For new general officer positions, the command or agency must 
justify the position and identify an offset. For a deletion, the 
command or agency must identify how the previously held 
responsibilities will be transferred, to include how the position 
should be filled (military or civilian) and at what level or rank. All 
general officer requirements are adjudicated at the four-star level. In 
every case, general officer requirements, and the fill of general 
officer positions, are predicated upon best enabling the Army to 
complete its missions and to take care of its soldiers, civilians, and 
their families.
    Admiral Ferguson. For Navy one- and two-star positions, the 
Secretary of the Navy is the approval authority for flag officer 
positions. These billets are designated based on the following 
criteria:

        <bullet> International agreements on rank structure, such as 
        within NATO.
        <bullet> Nature of the Position. This includes characteristics 
        of billet function (e.g. command, general or coordinating 
        staff, et cetera), consideration of the military and 
        governmental structure within which the billet is assigned, 
        official relations with U.S. and foreign governmental 
        officials, and importance of the position to national security 
        objectives.
        <bullet> Scope of Responsibilities. This involves the missions 
        of the organization and any special requirements, the number, 
        type, and value of resources managed and employed, size of the 
        geographical area of responsibility, national commitment to 
        international agreements, and seniority of subordinate 
        commanders.
        <bullet> Importance of mission accomplishment to national 
        security and other national interests.

    For Navy three- and four-star positions, the Secretary of the Navy 
nominates flag officers to the President via the Secretary of Defense 
and Chairman of the Joint Chiefs of Staff. The positions have been 
previously vetted using, but not limited to, the aforementioned 
criteria. In addition, as provided for by title 10 U.S.C. section 601, 
with the advice and consent of the Senate, the President designates all 
three- and four-star billets as positions of importance and 
responsibility authorized to carry the grade of admiral or vice 
admiral.
    The Navy does not make recommendations regarding flag officer 
requirements to joint flag officer billets. It responds to requests for 
nominations from the Joint Staff, General/Flag Officer Matters Office.
    General Dunford. There are no defined, written, or objective 
criteria for making recommendations to the Secretary of Defense 
regarding general officer billets in the Marine Corps. Historical 
precedence and professional judgment drive the selection of general 
officer billets. This task falls upon the Commandant of the Marine 
Corps who approves every general officer requirement for the Marine 
Corps. Precedence informs professional judgment with regard to 
appropriate span of control and authority, degree of independence and 
autonomy from other suitable command authorities, roles and missions of 
the command, and the operational/strategic impact of the billet. The 
Marine Corps does not fill a position with a general officer solely on 
historical precedence, however, we do consider that factor an important 
consideration. The current mix of Marine Corps general officers 
represents the proper balance of postings to Marine Corps operating 
forces, supporting elements, and joint requirements.
    General Breedlove. When providing recommendations to the Secretary 
of Defense as to which positions will be filled by general officers, 
the U.S. Air Force carefully assesses the responsibilities of the 
position being considered and then fills that billet with an officer 
with the appropriate rank. The Chief of Staff of the Air Force 
considers a number of factors when determining whether a position 
warrants an O-10, an O-9, an O-8, or an O-7.
    The primary factor when considering if a position merits a general 
officer is the span of control required to execute the mission of the 
unit or staff function in question. Some leadership positions demand a 
far-ranging and complex span of control and the Air Force places more 
experienced general officers (and thus higher ranking) into these 
billets.
    In addition, the Air Force considers the value of the managed 
resources when making determinations for general officer positions. 
Commands, programs, and staff functions responsible for large amounts 
of service resources have increased accountability to not only the Air 
Staff, but also to DOD, Congress, and the White House. Because of this 
key factor, the Air Force will place general officers of higher rank 
into positions that require a greater responsibility for Air Force 
resources.
    The Air Force also looks at the level of international interaction 
required in each billet when making a determination as to which general 
officer grade will fill that position. Political-military relationships 
in the international arena are critical to the accomplishment of our 
national security objectives. For the general officer positions that 
deal with international relationships, the Air Force seeks to ensure 
that the positions are at a rank commensurate with the counterparts. 
This helps ensure success as we build and maintain our strategic 
partnerships around the globe.

    5. Senator Webb. General Chiarelli, Admiral Ferguson, General 
Dunford, and General Breedlove, what criteria do you use when making 
recommendations concerning positions that should be filled by O-10s?
    General Chiarelli. The criteria used for making recommendations 
concerning positions that should be filled by O-10s are developed in 
the same manner described earlier for all Army general officer 
positions. The duties and responsibilities of the position and the 
mission of the unit must warrant leadership at the O-10 level. 
Additionally, when recommending candidates for the Secretary of Defense 
to forward to the President for nomination to the Senate, the Secretary 
of the Army and Chief of Staff, Army, with input and recommendations 
from the Army's four-stars, consider each candidate's background, 
experience, and potential for service (or continued service) as an O-
10. Ultimately, whether for an internal-Army or joint O-10 position, 
the imperative is ensuring the most capable senior leaders in uniform 
are placed in positions of importance and responsibility so as to 
ensure the Army and DOD carry out their responsibilities in the most 
effective, efficient manner possible. Of note, the Army has not 
requested a new, internal-Service O-10 position since the Continental 
Army Command was inactivated and, on July 1, 1973, U.S. Army Forces 
Command and U.S. Army Training and Doctrine Command were activated.
    Admiral Ferguson. The Navy has six in-Service positions that are 
filled by O-10 flag officers. Those positions are: (1) The Chief of 
Naval Operations, (2) The Vice Chief of Naval Operations, (3) Director, 
Naval Nuclear Propulsion, (4) Commander, Fleet Forces Command, (5) 
Commander, Pacific Fleet, and (6) Commander, U.S. Naval Forces Europe/
Commander, U.S. Naval Forces, Africa/Commander, Allied Joint Force 
Command Naples.
Chief of Naval Operations and Vice Chief of Naval Operations
    The Chief of Naval Operations and the Vice Chief of Naval 
Operations are provided for in title 10 U.S.C. sections 5033 and 5035. 
For these positions, the law dictates that both officers while so 
serving have the grade of admiral without vacating permanent grade.
Director, Naval Nuclear Propulsion Program
    In conjunction with title 42 U.S.C. section 7158, Executive Order 
No. 12344 section 4 states that an officer of the U.S. Navy appointed 
as Director of the Naval Nuclear Propulsion Program shall be nominated 
for the grade of admiral.
Commander, U.S. Fleet Forces Command and Commander, U.S. Pacific Fleet
    Subject to flag officer end strength limits established for the 
Navy in title 10 U.S.C. section 525, the Chief of Naval Operations has 
designated three Geographic Fleet Commanders positions be filled by O-
10 flag officers commensurate with the scope of command authority and 
responsibility their organizations have over their subordinate 
commands. Supporting the Chief of Naval Operation in his title 10 
responsibilities, the U.S. Navy's CONUS-based forces are divided into 
two geographic regions: U.S. Fleet Forces Command (formerly Atlantic 
Fleet) and U.S. Pacific Fleet. Each command effectively comprises one 
half of the entire U.S. Navy operating forces. The O-10 grade for both 
positions is commensurate with the scope and span of their 
responsibilities.
Commander, U.S. Naval Forces Europe; Commander, U.S. Naval Forces, 
        Africa; Commander, Allied Joint Force Command, Naples
    Commander, U.S. Naval Forces, Europe and Commander, U.S. Naval 
Forces, Africa has additional and distinct responsibilities within the 
NATO as the Commander, Allied Joint Force Command Naples (JFC-Naples). 
JFC-Naples is one of NATO's three operational commands, the others 
being Allied Joint Force Command Brunssum and Allied Joint Force 
Command Lisbon. The billet is designated as a four-star billet by NATO.
    Each of the three components under JFC-Naples: Allied Air Command 
Izmir (AC Izmir), Allied Maritime Command Naples (MC Naples), and 
Allied Force Command Madrid (AC Madrid) is led by a three-star flag or 
general officer.
    In addition to four-star level military responsibilities within 
NATO, this billet has significant engagement responsibilities involving 
interaction at the highest diplomatic and political levels with senior 
governmental officials from the 28 NATO nations and 22 Partnership for 
Peace nations. Additionally, the ongoing NATO Command Structure 
revision will reduce the Joint Force Commands from three to two, of 
which this billet will be one.
    General Dunford. There are no defined, written, or objective 
criteria for making recommendations to the Secretary of Defense 
concerning positions filled with O-10 general officers in the Marine 
Corps. The Marine Corps only has two O-10 billets which are the 
Commandant of the Marine Corps and the Assistant Commandant of the 
Marine Corps. Traditionally we have also provided two O-10 general 
officers to joint commands. Historical precedence and the professional 
judgment of the most senior Marine Corps leadership develop the 
recommendation criteria for promotion selection to O-10.
    General Breedlove. There are nine positions in the United States 
Air Force filled by four-star generals. These are the Chief of Staff 
(CSAF), the Vice Chief of Staff (VCSAF), the Commander of Air Combat 
Command (ACC), the Commander of Air Education and Training Command 
(AETC), the Commander of Air Force Materiel Command (AFMC), the 
Commander of Air Force Space Command (AFSPC), the Commander of Air 
Mobility Command (AMC), the Commander of Pacific Air Forces (PACAF), 
and the Commander of U.S. Air Forces in Europe (USAFE). Title 10 of the 
U.S.C. specifies the CSAF and VCSAF positions, and these positions are 
commensurate with the top two leadership positions in each of the other 
Services. The seven other four-stars in the U.S. Air Force are Major 
Command (MAJCOM) commanders and they have responsibilities, spans of 
control, and political-military interactions that require the most 
senior grade of general officer. Because of the complex and broad 
responsibilities for management, execution, and the commitment of 
wartime and training resources, these seven MAJCOMs clearly warrant the 
four-star grade of general. The effectiveness of daily operations in 
each one of these seven MAJCOMs has critical and direct impacts to the 
Nation's security. The Nation's capability to field a credible military 
force in any arena of conflict, regardless of the scope of warfare 
involved, is essential to our national security aims. Because of the 
responsibilities vested in each of the MAJCOMs, the Air Force feels 
strongly that the commanders of ACC, AETC, AFMC, AFSPC, AMC, PACAF, and 
USAFE should remain as four-star generals.

                     NEED FOR ROLES/MISSIONS STUDY

    6. Senator Webb. Secretary Stanley and Admiral Gortney, the General 
and Flag Officer Efficiency Study Group that you co-chaired conducted a 
fiscal year 2010 baseline review of all Active Duty general and flag 
officer positions, but did not seek to determine how many general/flag 
officers are required given our force today. Do you believe that a 
roles and missions study is warranted that would look at the needs of 
the Services and the joint community to determine actual requirements 
for general and flag officers? If not, why not?
    Secretary Stanley. Although the Efficiency Study Group was not 
charged with determining how many general/flag officers are required 
within the force, we did compare a number of like Service organizations 
to determine how the Services were alike or dissimilar. DOD also had 
recently conducted the 2009 Quadrennial Roles and Missions (QRM) 
review. Within this review, DOD defined its core missions and linked 
those missions areas with its capabilities development processes by 
identifying nine core competencies: force application; command and 
control; battle space awareness; net centric; building partnerships; 
protection; logistics; force support; and corporate management and 
support. The Services used those core competencies to inform the 
categorization of their individual general and flag officer positions 
which became the basis of the Efficiency Study Group's efforts.
    While the QRM review laid a foundation for understanding DOD's 
roles and responsibilities in today's complex security environment, 
there is still much work to be done. We will keep roles and missions at 
the forefront of our upcoming review of Reserve component general and 
flag officer positions.
    Admiral Gortney. Although the Efficiency Study Group did not 
determine how many general/flag officers are required within the force, 
we did compare a number of like Service organizations. These 
similarities showed that there simply wasn't enough time to do the top-
down level of review that is required to truly determine the impact of 
current general/flag officer strength. A roles and missions study, 
although extraordinarily complex and time consuming, would provide much 
needed clarity with regard to maintaining proper general/flag officer-
to-troop ratios. The financial expense requires a fair amount of 
planning and will take a significant amount of time to engage. Should 
we move in that direction, deliberate planning would have to begin 
immediately.

    7. Senator Webb. Secretary Stanley and Admiral Gortney, what is the 
plan to review the general and flag officer requirements in the Reserve 
components?
    Secretary Stanley. We are planning to begin our review of Reserve 
component position since the review of Active component general and 
flag officer positions is complete. Currently, the Joint Staff is in 
the process of validating all previously joint positions that lack 
joint credit certification and incorporating them into the Joint Staff 
manning document. After this is completed, the Reserve Chiefs and the 
Chief of the National Guard Bureau (NGB) will tier and categorize all 
Reserve component positions, similar to the way we did the Active 
component review, to ensure we have a good starting baseline from which 
to evaluate the positions. Once we have that information, a determined 
top-to-bottom review of Reserve/Guard general and flag officer billets 
will be conducted, with overarching responsibility given to the Reserve 
Chiefs and Chief, NGB General Officer Management Office.
    Admiral Gortney. Our first step was to validate and establish 
within joint personnel systems all previously joint positions that lack 
joint credit certification. Over the last several months many joint 
positions that are specifically Reserve/Guard in nature have been 
incorporated into the Joint Staff manning document. Purposefully, we 
next plan to request the Reserve and Guard tier/categorize all joint 
positions to ensure whatever the specific requirement necessary to 
develop our Reserve/Guard general officers is being met. It is true 
that a formalized process helmed by an outside organization is not on 
our scope. Rather, a determined top-to-bottom review of Reserve/Guard 
general/flag officer billets, with overarching responsibility given to 
the Reserve Chiefs and Director NGB General Officer Management Office.

    8. Senator Webb. Secretary Stanley and Admiral Gortney, each 
Service has a Chief and Vice Chief, but beyond that there appears to be 
little consistency across the Services with respect to what military 
department major subordinate commands or activities require a four-star 
general or flag officer level of leadership or structure. For example, 
each of the Services has a command that manages the readiness and 
availability for deployment of its uncommitted forces: the Army has 
Forces Command, the Navy has Fleet Forces Command, but the Air Force 
has Air Combat Command, Air Mobility Command, and arguably Space 
Command. Also, note that the Army's Training and Doctrine Command and 
the Air Force's Education and Training Command have four-star generals, 
but the Navy's Education and Training Command is led by a two-star rear 
admiral and the Marine Corps Training and Education Command is 
commanded by a major general. Does DOD have a plan to review the 
current O-10 positions to determine whether these positions warrant 
general and flag officers in that grade?
    Secretary Stanley. As part of our recent Efficiency Study, we 
reviewed each of the Services' structures and general/flag officer 
positions and identified those whose structure appeared anomalous when 
compared to the other Services. We, in fact, took a very determined 
look at the Education and Training Commands across DOD. The military 
departments were very detailed in their explanations of why organic 
commands maintain grades that are divergent from the other Services. 
It's also important to note that each Service varies in size, scope, 
and mission. Although training and education for ground forces is 
detailed and extraordinarily complex, it also differs greatly from what 
the Air Force faces with regard to aircraft and weapons platforms.
    Beyond this, there is not a plan to conduct another review of 
current O-10 positions; however, any request for a new O-10 position 
will be assessed on its merits when submitted.
    Admiral Gortney. We presently have no plan to review current O-10 
positions, however we have very recently taken a detailed review of 
Service general/flag officer positions. During the Secretary of 
Defense's mandated Efficiency Study, all grades and positions were put 
on the table. We, in fact, took a very determined look at the Education 
and Training Commands across all Services. The Services were very 
detailed in their explanations of why organic commands maintain grades 
that are divergent from the other Services. It's also important to note 
that each Service varies in size, scope, and mission. Although training 
and education for ground forces is detailed and extraordinarily 
complex, it also differs greatly from what the Air Force faces with 
regard to aircraft and weapons platforms.

    9. Senator Webb. Admiral Ferguson and General Breedlove, the Army 
has recently reduced the grade of the Commander of U.S. Army Europe to 
a lieutenant general while the commanders of U.S. Naval Forces Europe 
and U.S. Air Force Europe continue to be O-10 positions. Has your 
Service reviewed your European Command position to determine whether it 
should remain an O-10 position?
    Admiral Ferguson. We have reviewed the position and determined 
that, given the scope and significance of the duties assigned, it is 
appropriate and necessary to retain the position in the grade of O-10. 
The U.S. Naval Forces Europe billet is a four-star billet due to 
designation by NATO, as the officer is also dual-designated as the 
Commander, Allied Joint Forces Command Naples (JFC-Naples). JFC-Naples 
is one of NATO's three operational four-star commands. The Commander of 
U.S. Army Forces Europe does not have NATO-command responsibilities for 
a region.
    General Breedlove. Yes, the Air Force has reviewed the position of 
Commander, U.S. Air Forces in Europe and has determined it should 
remain an O-10 position for the near future.

    10. Senator Webb. Admiral Ferguson and General Breedlove, how do 
you justify retaining it as an O-10 position in light of the Army 
decision that the Commander of U.S. Army Europe is a lieutenant 
general?
    Admiral Ferguson. Unlike Commander U.S. Army Europe, Commander U.S. 
Naval Forces Europe also has responsibilities within NATO as the 
Commander, Allied JFC-Naples under Supreme Headquarters Allied Powers 
Europe. JFC-Naples is one of NATO's three operational commands, the 
others being Allied Joint Force Command Brunssum and Allied Joint Force 
Command Lisbon.
    Each of the three components under JFC-Naples: Allied Air Command 
Izmir (AC Izmir), Allied Maritime Command Naples (MC Naples) and Allied 
Force Command Madrid (AC Madrid) is led by three-star flag or general 
officers. The designation of JFC-Naples as a four-star billet was 
approved by all NATO nations.
    In addition to four-star level military responsibilities within 
NATO, this billet has significant international and alliance engagement 
responsibilities involving interaction at the highest diplomatic and 
political levels with senior governmental officials from the 28 NATO 
nations and 22 Partnership for Peace nations. Additionally, the NATO 
Command Structure revision will reduce the Joint Force Commands from 
three to two, of which this billet will be one.
    General Breedlove. The Commander of U.S. Air Forces Europe (USAFE) 
delivers full spectrum air power options to the combatant commanders of 
both U.S. European Command (EUCOM) and U.S. Africa Command (AFRICOM)--
AORs that comprise 51 and 54 nations respectively. USAFE leads and 
supports joint, coalition, and NATO operations as well as promoting 
regional stability in these two expansive and diverse continents. In 
addition, the USAFE commander also serves in a NATO leadership role and 
wears four different hats: within the NATO command structure, the USAFE 
Commander serves as the Commander Headquarters Allied Air Command, the 
Air Commander for the Joint Forces Command at Brunssum, the Air Defense 
Commander, and the Regional Airspace Control Authority. As the 
Commander of Allied Air Command, the USAFE commander is directly 
responsible to the Supreme Allied Commander (SACEUR) for ensuring the 
security, peace, stability, and territorial integrity of the NATO 
alliance. Within the responsibilities as the Air Defense Commander and 
the Regional Airspace Control Authority for NATO, the USAFE Commander 
is directly responsible for the control and management of the Ballistic 
Missile Defense (BMD) mission in Europe.
    If the USAFE Commander position were to be downgraded, these 
critical command positions in the NATO alliance would transition to a 
four-star airman from another NATO nation. This would mean that that 
BMD in Europe--a capability comprised largely of U.S. assets--would not 
be commanded by a U.S. Air Force officer. This would also mean that the 
overall leadership of allied airpower in the vast and dynamic EUCOM and 
AFRICOM AORs would also transition away from the United States. The 
U.S. Air Force feels strongly that these are not palatable options for 
regional security and that we must continue to maintain the USAFE 
Commander as an O-10 position.

           COMBATANT COMMANDS AND SERVICE COMPONENT COMMANDS

    11. Senator Webb. Secretary Stanley and Admiral Gortney, DOD has 
more than a dozen geographic and functional combatant commands. While 
all of these combatant commands are commanded by a four-star general or 
flag officer, the Service components of these commands are led by a mix 
of one-, two-, three-, and four-star general or flag officers. There 
appears to be little, if any, consistency in DOD's staffing of these 
components and, in many cases, the grade of the officer leading these 
entities seems to be driven more by history or tradition than the 
responsibility of the position. The impact of three- or four-star 
general or flag officers leading these various component commands may 
further be leading to an inflation of the headquarters staff. In your 
view, are the grades of those officers serving on combatant command and 
Service component staffs inflated?
    Secretary Stanley. No, I've seen no evidence to indicate that that 
the grades of those officers serving on combatant command and Service 
component staffs are inflated. The comprehensive review that VADM 
Gortney and I conducted on behalf of Secretary Gates allowed us to 
independently evaluate these positions. I would note that many of the 
positions have multiple responsibilities, both Service and Joint. In 
some cases, some officers have as many as five positions which they 
hold simultaneously. Variances in duties and responsibilities 
necessitate that the grade of the position be derived from the scope 
and breadth of its responsibilities, which vary significantly. The 
potential for grade creep may exist; however, our military systems have 
mechanisms in place for validation and establishment of specific 
grades.
    Admiral Gortney. No, the grades of the officers serving in COCOMs 
and Service component staffs are based on the scope of responsibilities 
and were deemed appropriate by the Secretary and Chief at the time. 
Discretion, sound judgment based on experience, and duty 
responsibilities is incorporated in the determination of a position's 
grade. The potential for grade creep may exist; however our military 
systems have mechanisms in place for validation and establishment of 
specific grades.

    12. Senator Webb. Secretary Stanley and Admiral Gortney, does the 
presence of a four-star commander unnecessarily lead to inflated grades 
of the principal staff officers and is further study of this required?
    Secretary Stanley. Generally speaking, four-star commands have more 
responsibility than three-star commands and thus are more likely to 
have principal staff officers of higher grades. But specifically no, a 
four-star's presence is not directly proportional to principal staff 
officer staff grade inflation. The grade structure of each individual 
command is largely dictated by the scope of responsibility assigned to 
the various positions and commands. Resource allocation is monitored 
and managed by the Joint Staff and each Service. Appropriate resource-
controlled mechanisms are employed by each Service which mitigates 
grade inflation.
    Admiral Gortney. No. A four-star's presence is not directly 
proportional to staff grade inflation. Resource allocation is monitored 
and managed by the Joint Staff and each Service. Appropriate resource-
controlled mechanisms are employed by each Service which mitigates 
grade inflation. Each Service has a table of organization that denotes 
structure requirements.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte

                           RESERVE READINESS

    13. Senator Ayotte. Secretary Stanley, the next Chairman of the 
Joint Chiefs of Staff, General Dempsey, recently stated that the future 
fiscal environment will present significant challenges in preserving 
the readiness gains of the Reserve component. General Dempsey also 
stated that the Reserve component of our Armed Forces has transformed 
from an ``exclusively strategic Reserve to one that also provides 
operational, full-spectrum capabilities to the Nation.'' Repeated 
combat deployments, as well as peacekeeping, humanitarian relief, and 
Homeland defense missions, have produced a Reserve component far more 
operationally capable and experienced than at any time in our Nation's 
history. How have reductions to date in general and flag officers 
impacted our critical Reserve component?
    Secretary Stanley. Although National Guard and Reserve general and 
flag officer authorizations were not evaluated in the Secretary's 
efficiency review, they will be evaluated in the next DOD review, which 
is anticipated to commence in the coming months. While all of the 
efficiencies were Active component positions, lost authorizations will 
provide fewer opportunities for Reserve component general and flag 
officers to serve in extended Active Duty positions.

    14. Senator Ayotte. Secretary Stanley, how will future reductions 
in general and flag officer levels impact our critical Reserve 
component?
    Secretary Stanley. Any reductions beyond those already planned for 
the Active Forces may affect training and development of future leaders 
for Joint and Service staff positions.

    15. Senator Ayotte. Secretary Stanley, what portion of flag officer 
cuts or eliminations will come from the Reserve component?
    Secretary Stanley. Until DOD completes its review of Reserve 
component general and flag officer positions which are anticipated to 
commence in the coming months, we do not have the applicable 
information to determine the portion of flag officer cuts or 
eliminations from the Reserve component.

                        SENIOR EXECUTIVE SERVICE

    16. Senator Ayotte. Secretary Stanley, what has been the percentage 
growth in Senior Executive Service (SES) since September 11, 2001? 
Please include specific numbers in your answers, including annual 
numbers by Service and the Office of the Secretary of Defense (OSD).
    Secretary Stanley. In September 2001, DOD held 1,342 SES 
allocations. As far as percentage growth, that number has grown 6 
percent to 1,423 SES allocations as of today. The table below details 
the annual numbers for DOD, the Services, and OSD.

----------------------------------------------------------------------------------------------------------------
        Senior Executive Service           2000/2001   2002/2003   2004/2005   2006/2007   2008/2009   2010/2011
----------------------------------------------------------------------------------------------------------------
Army....................................         289         289         286         288         291         296
Air Force...............................         170         170         161         161         165         170
Navy....................................         333         333         324         324         324         329
4th Estate/OSD..........................         550         550         580         585         588         584
Combatant Commands......................         N/A         N/A          28          33          44          44
                                         -----------------------------------------------------------------------
  Total OPM Authorization...............       1,342       1,342       1,379       1,391       1,412       1,423
----------------------------------------------------------------------------------------------------------------


    17. Senator Ayotte. Secretary Stanley, how does this percentage 
compare to the growth in flag grade officers over the same period?
    Secretary Stanley. Active component general and flag officer 
authorizations were reduced by 34 percent between 1970 and 2000 (from 
1,339 to 879), and then increased by 8 percent (from 879 to 952) after 
the general and flag officer Joint Pool legislation was enacted by the 
2009 and 2010 NDAAs. Over the same period, SES allocations have grown 
by 6 percent.

    18. Senator Ayotte. Secretary Stanley, how will the efficiencies 
initiatives decrease the number of the SES positions in DOD? Please 
provide specific numbers.
    Secretary Stanley. The goals of the efficiencies initiative 
regarding SES positions were to identify and eliminate redundancies and 
obsolete positions, and to identify and properly classify over-graded 
positions, if any. Therefore, DOD conducted a bottom-up review and 
identified 97 such SES positions that will be eliminated or downgraded. 
In addition, during the review, newly identified or emerging needs were 
evaluated to ascertain enduring needs. As a result of this evaluation, 
DOD identified 70 previously unrecognized mission-critical or mission-
support positions. Accordingly, while the overall distribution of SES 
positions across DOD has not dramatically decreased, the efficiencies 
initiative has ensured the overall requirements identified across DOD 
are more appropriately aligned, classified, and structured.
    For fiscal years 2012 to 2013, DOD's SES positions are allocated as 
follows:

------------------------------------------------------------------------
          Senior Executive Service             Fiscal Years 2012 to 2013
------------------------------------------------------------------------
Army........................................                        302
Air Force...................................                        165
Navy........................................                        317
4th Estate/OSD..............................                        591
Combatant Commands..........................                         48
                                             ---------------------------
  Total DOD Authorization from OPM..........                      1,423
------------------------------------------------------------------------


    19. Senator Ayotte. Secretary Stanley, to what degree does OSD 
oversee the quantity and use of SES positions by the Services?
    Secretary Stanley. OSD recognizes that the Services, fourth estate, 
and the combatant commands are in the best position to know their 
mission requirements. Therefore, they are responsible for identifying, 
establishing, and classifying their SES position needs. However, their 
on-board capacity is limited to the number SES allocations provided to 
them by the USD(P&R).
    After the Services, the combatant commands and the fourth estate 
have identified their SES requirements needed to fulfill their 
missions, the Office of the Under Secretary of Defense (Personnel and 
Readiness) is responsible for evaluating requests received from the 
Services, fourth estate, and the combatant commands. USD(P&R) then 
submits DOD requirements to the U.S. Office of Personnel Management 
(OPM) for all SES allocations throughout DOD. It should be noted that 
these requirements are considered on a biennial basis in response to 
the request from OPM, which serves as the distributing authority for 
all SES allocations government-wide. At the end of each biennial 
allocation process, the USD(P&R) is responsible for distribution of 
DOD's authorized SES allocations received from OPM across DOD. During 
the biennial allocation process, the Services, the fourth estate, and 
the combatant commands may request any allocation changes and may 
submit an out-of-cycle request through the USD(P&R).

    20. Senator Ayotte. Secretary Stanley, is there standard OSD 
guidance as to when a position should be filled by a flag grade officer 
as opposed to an SES?
    Secretary Stanley. Each of the Services has different processes 
through which they determine which positions warrant a general or flag 
officer or a civilian senior executive, but each of the Services and 
DOD generally use the same criteria for validation of a position: 
nature of the position, magnitude of the responsibilities, and 
significance of actions and decisions required by the position. These 
categories are broad in nature to provide latitude to the Service 
senior leadership when making these decisions. General and flag officer 
positions are warfighter-oriented, whereas civilian senior executive 
positions tend to be more business-oriented.

    [Whereupon, at 3:30 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
